<html>
<title> - OVERSIGHT HEARING ON ``SPENDING FOR THE NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION AND THE NATIONAL MARINE FISHERIES SERVICE, AND THE PRESIDENT'S FISCAL YEAR 2012 BUDGET REQUEST FOR THESE AGENCIES.''</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





SPENDING FOR NOAA AND NMFS AND THE PRESIDENT'S FISCAL YEAR 2012 BUDGET 
                      REQUEST FOR THESE AGENCIES

=======================================================================

                           OVERSIGHT HEARING

                               before the

                  SUBCOMMITTEE ON FISHERIES, WILDLIFE,
                       OCEANS AND INSULAR AFFAIRS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                        Thursday, March 31, 2011

                               __________

                           Serial No. 112-15

                               __________

       Printed for the use of the Committee on Natural Resources




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov


                  U.S. GOVERNMENT PRINTING OFFICE
65-462 PDF               WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
             EDWARD J. MARKEY, MA, Ranking Democrat Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F.H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush D. Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Mike Coffman, CO                     Jim Costa, CA
Tom McClintock, CA                   Dan Boren, OK
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Jeff Denham, CA                          CNMI
Dan Benishek, MI                     Martin Heinrich, NM
David Rivera, FL                     Ben Ray Lujan, NM
Jeff Duncan, SC                      John P. Sarbanes, MD
Scott R. Tipton, CO                  Betty Sutton, OH
Paul A. Gosar, AZ                    Niki Tsongas, MA
Raul R. Labrador, ID                 Pedro R. Pierluisi, PR
Kristi L. Noem, SD                   John Garamendi, CA
Steve Southerland II, FL             Colleen W. Hanabusa, HI
Bill Flores, TX                      Vacancy
Andy Harris, MD
Jeffrey M. Landry, LA
Charles J. ``Chuck'' Fleischmann, 
    TN
Jon Runyan, NJ
Bill Johnson, OH

                       Todd Young, Chief of Staff
                      Lisa Pittman, Chief Counsel
                Jeffrey Duncan, Democrat Staff Director
                 David Watkins, Democrat Chief Counsel
                                 ------                                

              SUBCOMMITTEE ON FISHERIES, WILDLIFE, OCEANS
                          AND INSULAR AFFAIRS

                       JOHN FLEMING, LA, Chairman
     GREGORIO KILILI CAMACHO SABLAN, CNMI, Ranking Democrat Member

Don Young, AK                        Eni F.H. Faleomavaega, AS
Robert J. Wittman, VA                Frank Pallone, Jr., NJ
Jeff Duncan, SC                      Madeleine Z. Bordallo, GU
Steve Southerland, II, FL            Pedro R. Pierluisi, PR
Bill Flores, TX                      Colleen W. Hanabusa, HI
Andy Harris, MD                      Vacancy
Jeffrey M. Landry, LA                Edward J. Markey, MA, ex officio
Jon Runyan, NJ
Doc Hastings, WA, ex officio

                                 ------                                











                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, March 31, 2011.........................     1

Statement of Members:
    Fleming, Hon. John, a Representative in Congress from the 
      State of Louisiana.........................................     1
        Prepared statement of....................................     1
    Hastings, Hon. Doc, a Representative in Congress from the 
      State of Washington........................................     6
        Prepared statement of....................................     7
    Markey, Hon. Edward J., a Representative in Congress from the 
      State of Massachusetts, Prepared statement of..............    43
    Sablan, Hon. Gregorio, a Delegate in Congress from the 
      Commonwealth of the Northern Mariana Islands...............     3
        Prepared statement of....................................     5

Statement of Witnesses:
    Lubchenco, Jane, Ph.D., Under Secretary of Commerce for 
      Oceans and Atmosphere, and Administrator, National Oceanic 
      and Atmospheric Administration, U.S. Department of Commerce     9
        Prepared statement of....................................    11

Additional materials supplied:
    Crockett, Lee R., Director of Federal Fisheries Policy, Pew 
      Environment, Statement submitted for the record............    44
                                     


 
     OVERSIGHT HEARING ON ``SPENDING FOR THE NATIONAL OCEANIC AND 
 ATMOSPHERIC ADMINISTRATION AND THE NATIONAL MARINE FISHERIES SERVICE, 
     AND THE PRESIDENT'S FISCAL YEAR 2012 BUDGET REQUEST FOR THESE 
                              AGENCIES.''

                              ----------                              


                        Thursday, March 31, 2011

                     U.S. House of Representatives

    Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 2:02 p.m. in 
Room 1334, Longworth House Office Building, John C. Fleming, 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Fleming, Hastings, Young, Duncan, 
Wittman, Southerland, Harris, Runyan, Markey, Pallone, 
Bordallo, Sablan, Pierluisi, and Hanabusa.

 STATEMENT OF HON. JOHN FLEMING, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF LOUISIANA

    Dr. Fleming. The Subcommittee will come to order. The 
Chairman notes the presence of a quorum, which under Committee 
Rule 3[e] is two Members. The Subcommittee on Fisheries, 
Wildlife, Oceans and Insular Affairs is meeting today to hear 
testimony on the President's Fiscal Year 2012 budget request 
for the National Oceanic and Atmospheric Administration, and 
the National Marine Fisheries Service.
    Under Committee Rule 4[f], opening statements are limited 
to the Chairman and the Ranking Member of the Subcommittee so 
that we can hear from our witnesses more quickly.
    However, I will recognize the Chairman and Ranking Member 
if he is here, and there he is, for any statement that he may 
have following the statement of the Subcommittee Ranking 
Member.
    I will also ask for unanimous consent to include any other 
Members' opening statements in the hearing record if submitted 
to the Clerk by close of business today. Hearing no objections, 
so ordered.
    [The prepared statement of Chairman Fleming follows:]

          Statement by The Honorable John Fleming, Chairman, 
    Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs

    As I am sure you are aware, we are hearing from a lot of fishermen 
about reduced harvest levels and fishery closures. In many cases, 
fishermen are frustrated either because the data which is being used to 
close fisheries is old or because the reason for the closure is not 
being adequately explained. I am sympathetic to both concerns. And 
while this budget proposal does add some new funding for stock 
assessments, if new information from new stock surveys is not included, 
you will be using much of the same old data in the assessments.
    Old data means your scientists and fishery managers include 
multiple layers of precaution when running their models. More 
precaution means lower harvest levels. Lower harvest levels mean 
fishery closures or restrictions which means less jobs and more 
economic harm to coastal communities. No funding for new information 
means NOAA can continue to use old data, hiding behind the ``best 
scientific information available'' argument. This is not acceptable.
    NOAA prides itself on being a scientific agency yet it continues to 
use old data when making management decisions--not just for fisheries 
management but also for Endangered Species Act decisions. You can 
imagine the frustration of fishermen whose livelihoods are threatened 
by an agency using ten-year old data at the same time the agency is 
cutting the ship time available to do stock surveys. You can imaging 
the frustration of fishermen who are told that recreational catch data 
is unavailable by an agency that wants to spend $2 billion on satellite 
programs but cuts observer coverage. You can imagine the frustration of 
our Full Committee Chairman when NOAA closes a valuable fishery based 
on little or no reliable data on Steller sea lions and their feeding 
habits at the same time NOAA is not funding any research to get the 
necessary answers. And you need to understand my frustration of seeing 
an agency grow 41% since 2008 but not addressing these issues. That has 
to change.
    While I understand that NOAA is more than a fisheries management 
agency, it often seems that NOAA is more interested in new technology 
than it is in getting basic information on how many fish are out there 
and available to fishermen. There is also a perception that the 
conservation aspects of NOAA's missions overshadow the missions to 
utilize the fishery resources of this Nation. I'm afraid this budget 
request will not change this perception or the minds of those facing 
fishery closures and fishery restrictions.
    Safe seafood is also a priority for our country, and certainly for 
the Gulf of Mexico. A recent nationwide survey by the Louisiana Seafood 
Promotion and Marketing Board found 70 percent of people are still 
concerned about eating Gulf seafood. For many this is troubling because 
Gulf seafood already undergoes some of the most intensive testing in 
the world--and test results that show Gulf seafood is safe to eat.
    I, along with many others, am concerned that until the public has a 
better understanding of the federal government's seafood safety work in 
the Gulf, consumer confidence will remain low, Americans will avoid 
healthful seafood, and the Gulf Coast economy will struggle to rebuild. 
I recently joined my colleagues in writing to the administration and 
strongly recommend that the Administration develop a robust, top-down 
approach to communicate to the American people that Gulf seafood is 
safe and healthy. I would urge you, consistent with your agency's 
mission to ``conserve and manage coastal and marine resources to meet 
our Nation's economic, social and environmental needs'' to be a part of 
the development of this approach and where appropriate, to work closely 
with the Gulf states and BP to effectively communicate your work and 
testing results on the safety of Gulf seafood to the American public.
    Having said all of that, I encourage you today to address these 
challenges with the Subcommittee as you present the President's FY 2012 
budget for NOAA. I would also like to thank Eric Schwaab, Assistant 
Administrator for Fisheries, for being here to answer questions 
specific to the National Marine Fisheries Service portion of the NOAA 
budget.
                                 ______
                                 
    Dr. Fleming. I would also like to note that this is the 
first hearing that the Subcommittee has held since the 
appointment of our new Subcommittee Ranking Member, Mr. Sablan, 
and I would like to congratulate him on his appointment, and 
welcome, sir.
    Mr. Sablan. Thank you.
    Dr. Fleming. Just a note here about time. The latest update 
was that we are going to be having two votes at 2:30. So we are 
going to try to get opening statements out of the way at least, 
and then we can reconvene.
    As I am sure that you are aware, we are hearing from a lot 
of fishermen about reduced harvest levels and fishery closures. 
In many cases, fishermen are frustrated either because of the 
data which is being used to close fisheries is old, or because 
the reason for the closure is not being adequately explained.
    I am sympathetic to both concerns, and while the budget 
proposal does add some new funding for stock assessments, if 
new information from new stock surveys is not included, you 
will be using much of the same old data in the assessments.
    Old data means that your scientists and fisher managers 
include multiple layers of precaution when running their 
models. More precaution means lower harvest levels. Lower 
harvest levels means fishery closures or restrictions, which 
means fewer jobs and more economic harm to coastal communities.
    No funding for new information means NOAA can continue to 
use old data, hiding behind the ``best scientific information 
available'' argument. This is not acceptable. I know that Mr. 
Young has raised the issue of ``best scientific information 
available'' at many hearings in the past, and I suspect now 
that I have brought it up that he will have something to say on 
the issue.
    NOAA prides itself on being a scientific agency, yet it 
continues to use old data when making management decisions--not 
just for fisheries management, but also for Endangered Species 
Act decisions.
    You can imagine the frustration of fishermen whose 
livelihoods are threatened by an agency using 10-year-old data 
at the same time the agency is cutting the ship time available 
to do stock surveys.
    You can imagine the frustration of fishermen who are told 
that recreational catch data is unavailable by an agency that 
wants to spend $2 billion on satellite programs, but cuts 
observer coverage.
    You can imagine the frustration of our Full Committee 
Chairman when NOAA closes a valuable fishery based on little or 
no reliable data on Stellar sea lions and their feeding habits 
at the same time that NOAA is not funding any research to get 
the necessary answers.
    And you need to understand my frustration of seeing the 
agency grow 41 percent since 2008, but not addressing these 
issues. That has to change. While I understand that NOAA is 
more than a fisheries management agency, it often seems that 
NOAA is more interested in new technology than it is in getting 
basic information on how many fish are out there and available 
to fishermen.
    There is also a perception that the conservation aspects of 
NOAA's mission overshadow the missions to utilize the fishery 
resources of this nation. I am afraid that this budget request 
will not change this perception or the minds of those facing 
fishery closures and fishery restrictions.
    Having said all of that, I encourage you today to address 
these challenges with the Subcommittee as you present the 
President's Fiscal Year 2012 budget for NOAA. I would also like 
to thank Eric Schwaab, Assistant Administrator for Fisheries, 
for being here to answer questions specific to the National 
Marine Fisheries Service portion of the NOAA budget.
    I will now recognize the Ranking Member for five minutes 
for any statement that he may have.

STATEMENT OF HON. GREGORIO SABLAN, A DELEGATE IN CONGRESS FROM 
        THE COMMONWEALTH OF THE NORTHERN MARIANA ISLANDS

    Mr. Sablan. Thank you very much, Mr. Chairman, and good 
afternoon everyone. Mr. Chairman, I would like to ask for your 
indulgence to diverge for a moment from today's agenda, because 
there is a matter that I want to bring to your attention.
    Last December, Homeland Security Secretary Napolitano wrote 
to Natural Resources Chairman, Nick Rahall, Senators Bingaman 
and Akaka, and myself, saying that she expected to publish a 
transitional worker rule implementing Public Law 110-229 in the 
first quarter of 2011.
    Today is the last day of the first quarter and the rule has 
not been published. Respectfully, I would like to request an 
oversight hearing on this and other issues regarding the 
transition to Federal control of immigration in the Northern 
Mariana Islands as soon as possible.
    I will tell you that, without this, businesses are hurting. 
They cannot sign contracts without knowing whether their 
workers will be available. We have to end this uncertainty. 
Anything that you can do to place a hearing on the 
Subcommittee's schedule would be most appreciated.
    Dr. Fleming. Will the gentleman yield?
    Mr. Sablan. Yes, of course, Mr. Chairman.
    Dr. Fleming. You and I have talked about the implementation 
of Public Law 110-229, the Consolidated Natural Resources Act, 
which applied Federal immigration laws to the Commonwealth of 
the Northern Mariana Islands.
    The Department of Homeland Security has been remiss in 
meeting its deadlines to publish any of the implementing 
regulations. The lack of regulations has created uncertainty in 
the region and has had an adverse impact on job creation and 
the local economy.
    It is my intent to consult with Chairman Hastings and see 
when we can have such a hearing. The Department of Homeland 
Security and other witnesses would be invited to testify on the 
implementation of the Act to allow the Subcommittee an 
opportunity to have a broad discussion on what I recognize as 
an important matter for your constituents.
    Mr. Sablan. Thank you very much, Mr. Chairman. Mr. 
Chairman, both you and I come from districts where our 
constituents benefit from services that the National Oceanic 
and Atmospheric Administration provides.
    During the Deepwater Horizon spill, and in the wake of 
Hurricane Katrina, the North Office of Response and Restoration 
was there on the front lines providing scientific information 
to aid in the response and recovery efforts in Louisiana and 
collecting data to understand the scope of the damage to 
fisheries and other natural resources in the Gulf of Mexico.
    Just this month there were real time measurements and 
modern technologies developed by NOAA's Pacific Marine 
Environmental Laboratory, and installed NOAA tsunami warning 
centers that accurately predicted when the Japanese tsunami 
would hit the Northern Mariana Islands.
    This allowed the people who I represent to get away from 
the danger on the shore, and in Hawaii, and all along the West 
Coast of our nation, and in the Territory of Guam, people were 
prepared because of NOAA's warning system.
    So the United States was relatively unscathed by this 
massive natural disaster, and only a few American lives were 
lost. These are the kinds of public services that most of us do 
not think about until the day that we need them.
    And when that day comes, when that unexpected emergency is 
suddenly upon us, then we are very glad indeed that our nation 
has made the investments and that we are prepared.
    Now the Administration has requested $5.5 billion for NOAA 
for Fiscal Year 2012. That is an increase of $749.3 million 
from the enacted level for Fiscal Year 2010. In contrast, the 
majority's Contining Resolution, H.R. 1, cuts almost $400 
million from the 2010 enacted level. So there is a significant 
divergence.
    But we know that NOAA provides a range of products and 
services that private citizens and businesses need, not just in 
emergencies, but on a daily basis, and especially in coastal 
communities where people's livelihoods depend on the health of 
the oceans, whether for casting, knowing how to manage 
fisheries so that they will keep producing, and giving advanced 
warnings for natural disasters.
    So we will have to continue to determine in a very 
difficult fiscal situation our country faces which of those 
services we cannot afford, and that we will have to get by 
without, and which of those services NOAA provides that are 
simply too important, and that we simply cannot afford to go 
without.
    With that, I look forward to hearing from our witnesses 
today, and learning more about what America is getting for its 
money, and I thank you, Mr. Chairman.<plus-minus>
    [The prepared statement of Mr. Sablan follows:]

  Statement of The Honorable Gregorio Kilili Camacho Sablan, Ranking 
Member, Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs

    Mr. Chairman, you and I both come from districts where our 
constituents benefit from services that the National Oceanic and 
Atmospheric Administration provides. During the Deepwater Horizon oil 
spill and in the wake of Hurricane Katrina, NOAA's Office of Response 
and Restoration was there, on the front lines, providing scientific 
information to aid response and recovery efforts in Louisiana, and 
collecting data to understand the scope of the damage to fisheries and 
other natural resources in the Gulf of Mexico.
    Just this month it was the real-time measurements and modeling 
technologies developed by NOAA's Pacific Marine Environmental 
Laboratory and installed at NOAA's Tsunami Warning Centers that 
accurately predicted when the Japanese tsunami would hit the Northern 
Mariana Islands. This allowed the people I represent to get away from 
the danger on the shore. And in Hawaii and all along the West Coast of 
our nation, people were prepared because of NOAA's warning system. So 
the United States was relatively unscathed by this massive natural 
disaster and only a few American lives were lost.
    These are the kinds of public services that most of us don't think 
about--until the day we need them. And when that day comes, when that 
unexpected emergency is suddenly upon us, then we are very glad indeed 
that our nation has made the investment and that we are prepared.
    Now the Administration has requested $5.5 billion for NOAA for 
Fiscal Year 2012. That's an increase of $749.3 million from the enacted 
level for Fiscal Year 2010. In contrast, the Majority's continuing 
resolution, H.R. 1, cuts almost $400 million from the 2010 enacted 
level. So there is a significant divergence.
    But we know that NOAA provides a range of products and services 
that private citizens and businesses need--not just in emergencies, but 
on a daily basis--and especially in coastal communities where people's 
livelihoods depend on health of the oceans. Weather forecasting, 
knowing how to manage fisheries so they'll keep producing, giving 
advance warning for natural disasters. . .
    So, we will have to determine--in the very difficult fiscal 
situation our country faces--which of those services we cannot afford 
and will have get by without, and which of those services NOAA provides 
that are simply too important and that we simply cannot afford to be 
without.
    With that, I look forward to hearing from our witness today and 
learning more about what America is getting for its money.
                                 ______
                                 
    Dr. Fleming. I thank the gentleman. Next, I now recognize 
the Chairman of the Full Committee, Mr. Hastings, for any 
statement that he may have.

 STATEMENT OF HON. DOC HASTINGS, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF WASHINGTON

    Mr. Hastings. Thank you very much, Mr. Chairman. I 
appreciate as always the courtesy that I am being shown here. 
This hearing is very important for my constituents in Central 
Washington, as well as for the American people nationwide.
    As NOAA comes to testify in support of a sizable budget 
increase over current funding levels, many of the millions of 
people who live on the land and in coastal areas that NOAA 
regulates are struggling economically.
    For the past 20 years, NOAA has expanded its management 
responsibilities over Endangered Species Act-listed salmon to 
include 28 separate populations, resulting in severe economic 
impacts to vast portions of Washington, Oregon, Idaho, and 
California.
    These listings have resulted in policies that require 
Federal approval of literally every human activity involving 
water and salmon. Over the past decade, increased lawsuits 
against agriculture, irrigation, forestry, transportation, 
operators of clean hydropower-producing dams, and other 
developments, have taken a huge bite out of our Nation's 
economy.
    These lawsuits have even blocked efforts to stop sea lions 
from eating more and more endangered salmon. Despite several 
recent years of record and near-record salmon runs, not one 
population of salmon has been removed from the ESA list.
    NOAA has finalized only a handful of salmon recovery plans 
and NOAA has even suggested in a recent decision that more ESA-
listed salmon species will be needed to feed another listed 
species under its jurisdiction, the orca whale.
    President Obama in his State of the Union Address referred 
to the duplicative Federal endangered salmon management in 
oceans and rivers as an example of how the government needs to 
be more efficient and competent.
    I agree that the Federal Government can and must be more 
efficient in these areas. Unfortunately, this latest NOAA 
budget request falls far short in my mind.
    This budget request represents an increase of more than 
$700 million over current funding levels, a nearly 16 percent 
increase, largely for expensive new satellite programs and to 
create a whole new bureaucracy, the NOAA Climate Service, 
including plans for a ``customer engagement and education 
division.''
    And in exchange for that huge increase, NOAA seeks to wrap 
up law enforcement against fishermen in the midst of recent 
media reports that NOAA shredded documents and imposed 
unjustified fines, and shut down fisheries.
    NOAA also seeks a $37 million increase for a ``national 
catch share program and, in the process, moving money out of a 
more productive cooperative research program. While I 
understand the need to fund existing catch share programs, I am 
concerned that the Administration seems intent on imposing 
catch shares in fisheries where they are not wanted.
    I am concerned with the adequacy of NOAA's data collection 
activities. This budget request significantly cuts ship time 
for fishery research vessels and heightens concerns about 
whether NOAA will have reliable science to guide its fishery 
regulations.
    This data concern is particularly apparent in the science 
used by the agency to regulate activities, like ocean-based 
fishing, that might affect species. Even though NOAA has spent 
more than $150 million since 2001 for Steller sea lion 
research, significant questions remain unanswered.
    This is especially true in the Western Aleutian Islands 
where NOAA-imposed restrictions could result in up to $61 
million in losses per year based on the actions of only three 
tagged animals. Such decisions made without adequate scientific 
information are simply unacceptable.
    NOAA also increases new funds to implement the 
controversial Coastal and Marine Spatial Planning initiative 
and the National Ocean Council activities, which is constructed 
to lead to sweeping new regulations on coastal and inland 
waterways across the Nation.
    I am troubled that these Executive Branch actions are 
moving forward without Congressional or statutory approval. In 
the coming months, I look forward to a robust oversight of 
NOAA's programs and activities to ensure that species, coastal 
areas, and American jobs, are protected for generations to 
come, and that NOAA's decisions are based on sound science and 
only move forward under proper statutory authority.
    And with that, Mr. Chairman, thank you again. I yield back 
my time.
    [The prepared statement of Chairman Hastings follows:]

       Statement of The Honorable Doc Hastings, a Representative 
                in Congress from the State of Washington

    This hearing is very important for my constituents in central 
Washington--as well as for Americans nationwide. As NOAA comes to 
testify in support of a sizable budget increase over current funding 
levels, many of the millions of people that live on the land and 
coastal areas NOAA regulates, are struggling economically.
    For the past 20 years, NOAA has expanded its management 
responsibilities over Endangered Species Act-listed salmon to include 
28 separate populations, resulting in severe economic impacts to vast 
portions of Washington, Oregon, Idaho and California.
    These listings have resulted in policies that require federal 
approval of literally every human activity involving water and salmon. 
Over the past decade, increased lawsuits against agriculture, 
irrigation, forestry, transportation, operators of clean hydropower-
producing dams, and other development, have taken a huge bite out of 
our nation's economy. These lawsuits have even blocked efforts to stop 
sea lions from eating more and more endangered salmon.
    Despite several recent years of record and near-record salmon 
returns, not one population of salmon has been removed from the ESA 
list. NOAA has finalized only a handful of salmon recovery plans. NOAA 
has even suggested in a recent decision that more ESA-listed salmon 
species will be needed to feed another listed species under its 
jurisdiction--the orca whale.
    President Obama, in his State of the Union address, referred to the 
duplicative federal endangered salmon management in the ocean and in 
rivers as an example of how the government needs to be more efficient 
and competent. I agree the federal government can and must be more 
efficient in these areas. Unfortunately, this latest NOAA budget 
request falls far short.
    This budget request represents an increase of more than $700 
million over current funding levels--a 15.8% increase--largely for 
expensive new satellite programs and to create a whole new 
bureaucracy--the NOAA Climate Service, including plans for a ``customer 
engagement and education division.''
    In exchange for that huge increase, NOAA seeks to ramp up law 
enforcement against fishermen in the midst of recent media reports that 
NOAA officials shredded documents, imposed unjustified fines and shut 
down fisheries.
    NOAA also seeks a $37 million increase for a ``national catch share 
program''--in the process, moving money out of a more productive 
cooperative research program. While I understand the need to fund 
existing catch share programs, I am concerned that the Administration 
seems intent on imposing catch shares in fisheries where they are not 
wanted.
    I am concerned with the adequacy of NOAA's data collection 
activities. This budget request significantly cuts ship time for 
fishery research vessels and heightens concerns about whether NOAA will 
have reliable science to guide its fishery regulations.
    This data concern is particularly apparent in the science used by 
the agency to regulate activities--like ocean-based fishing--that might 
affect listed species.
    Even though NOAA has spent more than $150 million since 2001 for 
Steller sea lion research, significant questions remain unanswered. 
This is especially true in the western Aleutian Islands where NOAA-
imposed restrictions could result in up to $61 million in losses per 
year based on the actions of only three tagged animals. Such decisions 
made without adequate scientific information are unacceptable.
    NOAA also seeks new funds to implement the controversial Coastal 
and Marine Spatial Planning initiative and National Ocean Council 
activities, which is constructed to lead to sweeping new regulations on 
coastal and inland waterways across the nation. I am troubled that 
these executive branch actions are moving forward without Congressional 
or statutory approval.
    In the coming months, I look forward to a robust oversight of 
NOAA's programs and activities to ensure that species, coastal areas--
and American jobs--are protected for generations to come, and that 
NOAA's decisions are based on sound science and only move forward under 
proper statutory authority.
                                 ______
                                 
    Dr. Fleming. Thank you, Chairman Hastings, for that. We 
also offer the same courtesy to the Ranking Member of the Full 
Committee. However, he is not in attendance today. So next up 
will be our witness, and I would like to introduce her.
    Our witness today is Dr. Jane Lubchenco, Under Secretary of 
Commerce for Oceans and Atmosphere, and NOAA Administrator. 
Like all witnesses, your written testimony will appear in the 
full hearing record.
    So I ask that you keep your oral statements to five 
minutes. As outlined in our invitation letter to you, and under 
Committee Rule 4[a]. Our microphones are not automatic, and so 
please push the button when you are ready to begin.
    While you have testified before this Subcommittee in the 
past, I will give a quick reminder on our timing lights, and 
how they work. Basically, it remains green four minutes, and 
then yellow for one minute, and then red.
    Obviously, you don't have to stop in mid-sentence, but try 
to wrap up in another sentence or two at that point. When you 
begin to speak our clerk will begin the timer as I indicated, 
and then you may complete the sentence at the end of that.
    And then one final footnote that I just learned is that Dr. 
Lubchenco is a new grandmother. So we want to congratulate you 
for that. I think a two week old is my understanding?
    Dr. Lubchenco. That is correct.
    Dr. Fleming. And speaking as a two time grandfather, you 
have quite an enjoyable journey ahead of you. So I want to 
thank you for that. So your five minutes is beginning, and Dr. 
Lubchenco, go forward.

 STATEMENTS OF DR. JANE LUBCHENCO, UNDER SECRETARY OF COMMERCE 
 FOR OCEANS AND ATMOSPHERE AND ADMINISTRATOR, NATIONAL OCEANIC 
  AND ATMOSPHERIC ADMINISTRATION; AND ERIC SCHWAAB, ASSISTANT 
        ADMINISTRATOR, NATIONAL MARINE FISHERIES SERVICE

    Dr. Lubchenco. Thank you, Mr. Chairman. Thank you Members 
of the Committee. I appreciate this opportunity to present to 
you the President's Budget Request for NOAA for 2012. I want to 
begin by thanking you for your leadership and your support for 
NOAA.
    As you know, we are one of the Nation's premier 
environmental science and stewardship agencies. The vital role 
that we play in the protection of life and property has been 
exemplified by NOAA's actions in the wake of the tragic events 
in Japan earlier this month.
    The Japan earthquake and the resulting tsunami had far-
reaching effects, and many of NOAA's programs played a critical 
role in issuing lifesaving information to emergency officials 
and the public in the United States and around the world as 
Delegate Sablan has noted.
    I am honored to be here to discuss the President's Fiscal 
Year 2012 budget request, which recognizes the central role 
that science and technology play in creating new jobs, 
improving the health and security of Americans.
    I wish to highlight four linchpins of our Fiscal Year 2012 
request: key savings, satellites, fisheries, and protected 
resource management, and coastal and ocean services.
    As part of the Administration's administrative efficiency 
initiative, NOAA analyzed its administrative costs and reduced 
non-essential spending by $67.7 million. We conducted a 
rigorous review of our programs and activities, and identified 
additional savings.
    The Fiscal Year 2012 request is $5.5 billion, a decrease 
from the Fiscal year 2011 request, and an increase above Fiscal 
Year 2010 enacted, due primarily to our requirements to execute 
the restructured civil polar satellite program.
    NOAA's satellites provide the data and information for 
forecasts that enables safe transportation, early response to 
severe weather, smart construction and emergency rescue 
missions.
    The Fiscal Year 2012 budget request for the satellite 
service is $2 billion, which we will invest in multiple 
satellite acquisition programs. This includes an increase of 
$687.8 million for the joint polar satellite system.
    This program is essential if we are to maintain the quality 
of our severe storm warnings, provide long term forecasts, and 
receive emergency distress signals in timely fashion.
    Rebuilding our Nation's fisheries is essential to 
preserving the livelihoods of fishermen and related industries. 
In 2008, United States commercial and salt water recreational 
fisheries supported 1.9 million full and part-time jobs, and 
generated $163 million in sales impacts.
    In 2012, NOAA requests $1.1001 billion to support fisheries 
and protected resource management. NOAA will invest $67 million 
to expand annual stock assessments.
    This investment is essential for setting annual catch 
limits at the most optimal level so that the return to 
fishermen is maximized, while maintaining the health of the 
resource.
    NOAA will also invest three million to improve the 
timeliness and quality of catch monitoring and recreational 
fisheries to ensure that they are not unnecessarily restricted 
due a lack of data.
    This is part of a broader effort to work more closely with 
the recreational fishing community. We will also continue to 
support the national catch share policy and the consideration 
of catch share management by councils.
    Catch shares are difficult and sometimes controversial to 
implement, but when well designed, they have yielded 
significant financial and ecological benefits, as well as 
improved safety for fishermen.
    Numerous coastal communities along our coast are being 
impacted by the loss of fishing opportunities. The Fiscal Year 
2012 budget requests eight million to support the National 
Working Waterfronts Grant Program to assist fishing dependent 
coastal communities.
    These grants will provide resources to such communities for 
planning activities that support economic diversity, resource 
conversation, and economic capital growth. It is expected that 
the Nation's coastal population will grow by more than 11 
million by 2015.
    Also, this budget includes $559 million to enable NOAA to 
continue delivering a dynamic range of services promoting safe, 
healthy, and productive ocean coasts and great lakes. A pivotal 
event in 2010 was the explosion of the Deepwater Horizon oil 
rig on April 20. NOAA responded within minutes, within hours, 
providing targeted weather forecasts and trajectory maps, 
mobilizing personnel to respond to it, because of the largest 
oil spill in United States history.
    Oil spills remain a significant concern and this budget 
requests $2.9 million to develop an oil spill research and 
development program. NOAA also requests $5 million to implement 
the United States Integrated Ocean Observing System Surface 
Current Mapping Plan.
    The system uses high frequency radar surface current 
measurements, which are vital to oil spill response, national 
defense, search and rescue, as well as water quality monitoring 
and research.
    And in closing I would like to note that I have a nickel in 
my hand. This nickel represents what I believe is one of the 
best bargains for the American public. It costs each American 
less than five cents a day to operate NOAA, and this nickel 
gives you the best weather information in the world.
    It allows us to save lives and property when severe storms 
strike. This nickel means that our coasts are more healthy and 
vibrant, and in-turn our coastal communities are more 
prosperous.
    This nickel helps American businesses succeed, from the 
fishermen on the coast, to the farmer in the heartland, and 
everything in between. This nickel helps keep our homeland 
secure.
    At NOAA our work is everyone's business. We take our work 
seriously because we know that citizens and businesses depend 
on us each and every day. I look forward to working with the 
Members of the Committee and our constituents to achieve this 
goal. I am happy to respond to questions that the Committee 
might have. Thank you very much.
    [The prepared statements of Dr. Lubchenco and Mr. Schwaab 
follow:]

  Statement of Jane Lubchenco, Ph.D., Under Secretary of Commerce for 
  Oceans and Atmosphere and NOAA Administrator, National Oceanic and 
        Atmospheric Administration, U.S. Department of Commerce

    Chairman Fleming and members of the committee, before I begin my 
testimony I would like to thank you for your leadership and the support 
you have shown the Department of Commerce's National Oceanic and 
Atmospheric Administration (NOAA), one of the Nation's premier 
environmental science and stewardship agencies. Your continued support 
for our programs is appreciated as we work to improve the products and 
services that are vital to supporting America's businesses, 
communities, and people. I am honored to be here as the Under Secretary 
of Commerce for Oceans and Atmosphere at NOAA to discuss the 
President's FY 2012 budget.
    Secretary Locke is singularly focused on how the Department of 
Commerce can help American businesses compete for the jobs of the 
future. As part of the Commerce Department, NOAA generates value for 
the Nation by providing the information and services that communities, 
managers, businesses, and individuals rely on every day to make 
decisions about their lives and businesses. NOAA touches the lives of 
every single American; we work 24/7 to keep families safe, property 
protected, living marine resources vibrant, communities thriving, and 
businesses strong. NOAA works everywhere, in every state, and from the 
surface of the sun to the depths of the ocean. Our research informs our 
many services and science guides our stewardship of the oceans, coasts, 
and Great Lakes.
    The vital role NOAA plays in the protection of life and property 
has recently been exemplified by NOAA's action in the wake of the 
earthquake and resulting tsunami in Japan last month. NOAA played a 
critical role in issuing life-saving information to emergency officials 
and the public in the U.S and around the world. I'm sure I echo the 
sentiments of many when I say that our hearts, thoughts and best wishes 
are with the people of Japan and the survivors of the cataclysmic 
earthquake and tsunami that, in a matter of minutes, took the lives of 
thousands and forever changed the lives of millions. NOAA will continue 
to provide whatever support we can as those affected recover and 
rebuild from this tragedy.
    The President's FY 2012 budget request promotes innovation and 
American competitiveness and lays the foundation for long-term economic 
growth, while making responsible reductions. In particular, the budget 
recognizes the central role that science and technology play in 
stimulating the economy, creating new jobs, and improving the health 
and security of Americans.
FY 2012 BUDGET REQUEST AND FY 2010 HIGHLIGHTS
    Secretary Locke has brought a dedicated focus on efficiency and 
good management to the Department of Commerce. As part of the 
Administration's Administrative Efficiency Initiative, an aggressive 
government-wide effort to curb non-essential administrative spending, 
NOAA analyzed its administrative costs and reduced non-essential 
spending by $67.7 million. Beyond administrative savings, NOAA engaged 
in a rigorous review of its programs and activities and identified 
additional savings that were achievable. For example, we were able to 
reduce the cost of operating our current satellite programs, and we 
restructured our international portfolio of climate research. Further, 
as a member of the newly established Gulf Coast Ecosystem Restoration 
Task Force we are working with federal and state agencies to find 
efficiencies, improve coordination and accountability in restoring Gulf 
Coast ecosystems.
    In short, the FY 2012 budget for NOAA reflects our efforts to focus 
on program needs, identify efficiencies, and ensure accountability. It 
sustains core functions and services, and proposes increases for only 
the most critical programs, projects, or activities necessary to 
address the growing demand for NOAA's science, services, and 
stewardship. The FY 2012 request is $5.5 billion, which is a decrease 
from the FY 2011 request. The FY 2012 request is an increase above FY 
2010 enacted due primarily to our requirements to execute the 
restructured civil polar satellite program. As I will discuss later, 
this new generation of satellites is needed to replace satellites that 
will go out of service in the years to come. They are essential for 
both routine weather forecasts on which the private weather industry 
depends, and for storm warnings and watches that only the government 
can issue. The expenditures on satellites are mission critical for 
NOAA. People's lives and property depend on them. This year 21 people 
have been rescued because of NOAA satellite tracking, and 91 have been 
rescued since last October. Beyond weather forecasts, fishermen and 
recreational boaters count on NOAA satellites to keep them safe in the 
event of an emergency at sea.
    The FY 2012 NOAA budget recognizes that environmental and economic 
sustainability go hand in hand. We learned through the BP Deepwater 
Horizon oil spill and other events that we cannot have healthy 
economies without healthy communities and healthy ecosystems and that 
good science and stewardship is good business. NOAA's 2012 budget makes 
the investments needed to save lives and livelihoods, to understand 
these critical connections, and to ensure sustainable communities, 
economies, and ecosystems.
    Now I will turn to the details of the FY 2012 budget request and 
outline areas of significant investment.
Climate Service
    The FY 2012 budget request includes a proposed budget-neutral 
reorganization that brings together NOAA's existing widely dispersed 
climate capabilities under a single line office management structure 
called the Climate Service. The proposed organization mirrors the 
structure recommended by the National Academy of Public Administration 
expert panel that, at Congress' request, completed a study on options 
for a climate service in NOAA. The principal goal of this budget-
neutral reorganization is to better align NOAA's existing assets under 
a unified leadership to more efficiently and effectively respond to the 
rapidly increasing public demand for climate services. The Climate 
Service would provide reliable and authoritative climate data, 
information, and decision-support services, and to more effectively 
coordinate with other agencies, partners, and the private sector. And--
important to this committee and to me--the proposed structure would 
strengthen the world-class science for which NOAA is justly known. 
Without continued advances in the science that supports our mission, 
the utility of services will degrade with time. Hence, the success of 
this organization requires attention to strengthening our core science 
capacity, strengthening the service-provision capacity and 
strengthening the connections between the two.
    NOAA is continually improving our scientific and technological 
capacity to develop and deliver a range of science and services. For 
example, NOAA's improved maximum precipitation predictions have been 
used to develop new standards for dam design that are being implemented 
around the Nation to improve dam safety and reliability. Similarly, 
through collaboration with the National Association of Home Builders 
and the Department of Housing and Urban Development, NOAA developed an 
Air Freezing Index that the home building industry estimates saves $300 
million annually in construction costs and the equivalent of 9 million 
gallons of gasoline.
    The budget-neutral realignment of resources within the current NOAA 
budget would not change staffing levels, would not require employee 
relocations, physical relocation of programs or labs, any new 
facilities, and would not increase the size of NOAA's overhead. The 
Climate Service headquarters would be located in Silver Spring, 
Maryland.
    The NOAA Climate Service, if approved by Congress, would have a 
budget of $346.2 million. Of this amount, NOAA proposes $3.0 million to 
support the Regional Climate Centers (RCC) in FY 2012. This funding 
will maintain support for RCCs as critical NOAA partners in the 
development and delivery of regional climate services. The RCCs will be 
aligned with the six NOAA Climate Service Regions and fully integrated 
as core components of NOAA's regional climate services partnership. 
Each center will function as a source of expertise in the region, 
working to identify stakeholder needs and matching these needs with the 
emerging science and decision support services flowing from the Climate 
Service's core capabilities. For example, this work could improve 
products for farmers, who already rely on NOAA climate data, 
particularly in El Nino/Southern Oscillation years, to make smart 
decisions about what variety of seed to plant and the amount of 
fertilizer to use. These types of forecasts can potentially provide a 
$500-$960 million per year benefit to the U.S. agriculture industry.
National Weather Service (NWS)
    NOAA's National Weather Service (NWS) is the Nation's first line of 
defense against severe weather. NOAA provides weather, hydrologic, and 
climate forecasts and warnings for the United States, its territories, 
and adjacent waters for the protection of life and property and the 
enhancement of the national economy. More sectors of the U.S. economy 
are recognizing the impacts of weather, water, and climate on their 
operations and are becoming more sophisticated at using weather-related 
information to make better decisions. The NWS provides critical 
information to communities and emergency managers. In 2010, the United 
States experienced a number of extreme weather events including the 
historic winter blizzards in the Northeast early in the year, historic 
flooding in the Midwest and Tennessee, and the third most active 
Atlantic hurricane season on record. The tragedy of the March 2011 
tsunami in Japan, which had far reaching effects including the U.S. 
West Coast, reinforces the very real threat of severe weather events, 
and underscores the value of comprehensive warning systems and a 
prepared public.
    The FY 2012 request for NWS is $988 million. The request envisions 
using cost-cutting and cutting-edge technologies to better support the 
programs necessary to achieve NOAA's vision of delivering more reliable 
forecasts, reducing weather-related fatalities, and improving the 
economic value of weather, water, and climate information.
    Weather-related air traffic delays cost the U.S. economy over $41 
billion in 2007, according to the Congressional Joint Economic 
Committee. Two thirds of these delays could be avoided with more 
accurate and better-integrated weather information for decision-making. 
To meet the rising demands of the air transportation industry, NOAA is 
involved in a collaborative partnership with the Federal Aviation 
Administration (FAA) and other Federal agencies to create the Next 
Generation Air Transportation System (NextGen). NOAA requests a $26.9 
million increase to modernize our aviation weather forecasts and 
warnings. This funding supports NextGen development activities, 
allowing for better integration of weather information into decision-
making solutions for the FAA--potentially reducing the number of air 
delays.
    Wind shear is hazardous to aviation and critical to hurricane 
formation and intensity. The Nation's upper air (UA) network enables 
unmatched ability to detect this wind shear and enables much improved 
ability to define the jet stream core by providing approximately 78,000 
atmospheric profiles (wind, humidity, temperature, pressure and 
altitude) per year from ground level to up to 60,000 feet. To improve 
the UA network, NOAA requests a $5 million increase for new GPS 
radiosondes to provide a 50 percent improvement in wind measurement 
accuracy and a 6-fold improvement in vertical resolution. With this 
investment, NOAA will fully fund the purchase of GPS radiosondes for 
all 102 UA observing stations, ensuring improvements to weather models.
    Large maritime data voids exist where no meteorological or 
oceanographic data are routinely sampled due to poorly maintained 
buoys. This lack of data makes it difficult for forecasters to make 
accurate and timely marine warnings and forecasts and to measure the 
accuracy of their forecasts. NOAA currently operates 101 moored, 
weather observation buoys and 49 coastal, marine automated network 
stations. However, over the last eight years, system performance has 
trended downward to the current low of 67 percent data availability as 
of February 2011. This trend will continue downward to 65 percent data 
availability by 2011 without increased support. NOAA requests a $4 
million increase to provide operations and maintenance funding for 
damaged and destroyed buoys and to comply with new international 
regulations. Funds will also be used to begin reducing the backlog of 
deferred maintenance by employing charter vessels to supplement the 
diminishing availability of U.S. Coast Guard ship time for servicing 
the weather buoy network.
    In FY 2012 NOAA requests a total of $41 million, including $10.2 
million from mandatory funds provided by the Deficit Reduction Act of 
2005, to support our tsunami warnings and research activities. Within 
minutes after the March 11th earthquake struck, NOAA issued its first 
tsunami warning for Japan, Russia, Marcus Islands, and Northern Mariana 
Islands as part of the coordinated global response to this tragic 
natural disaster. Shortly thereafter, timely watches, advisories, and 
warnings were extended to vulnerable coastal areas of Alaska, British 
Columbia, California, Washington, Oregon, and Hawaii well ahead of the 
arrival of the first waves. To maintain the effectiveness of these 
services, NOAA's Tsunami Program will use the FY 2012 funding to 
continue operations of NOAA's Deep-ocean Assessment and Reporting of 
Tsunami (DART) buoy network, maintenance of its 164 sea-level 
stations, and funding of its two Tsunami Warning Centers (TWC). NOAA 
will continue to expand community preparedness and finalize the balance 
of the tsunami hazard mitigation models (to cover all US coastal 
areas). NOAA will also continue research to improve its tsunami warning 
and forecast capabilities, and the completion of high resolution models 
for tsunami inundation forecasts for tsunami threatened local 
communities.
    Although NOAA's Tsunami Warning Centers and DART stations are 
operated by NWS, NOAA drew from the capabilities of all our line 
offices to provide a comprehensive response to the March 2011 tsunami. 
The following are examples of the contributions from other parts of 
NOAA:
        <bullet>  NOAA's DART stations, a result of research performed 
        at NOAA's Office of Oceanic and Atmospheric Research, detected 
        and tracked the tsunami as it traveled from Japan across the 
        Pacific Basin.
        <bullet>  National Ocean Service tide gauges, which help detect 
        the presence of a tsunami wave, use GOES satellites operated by 
        NOAA's Satellite Service to relay data to the tsunami warning 
        centers.
        <bullet>  NOAA response teams from the National Ocean Service 
        are in California to assist with detection of submerged debris 
        resulting from the tsunami in marine transportation arteries 
        along the coast.
    Finally, the underpinning of NOAA's products and services mentioned 
previously is the model-based guidance of NOAA's operational high 
performance computing (HPC). HPC provides models and model-based 
estimates of both current and future states of the Earth's environment, 
which are a key component of modern weather forecasts. NOAA requests an 
$11 million increase towards transitioning NOAA's HPC to a new 
contract, as well as continuing regular improvements to our numerical 
weather prediction modeling.
National Environmental Satellite Service (NESS)
    NOAA's satellites provide the data and information for forecasts 
that are vital to every citizen in our Nation. From safe air, land, and 
marine transportation to construction and emergency rescue missions, we 
all use satellite products in our everyday lives. In FY 2010, our 
satellite program saw a major milestone accomplished with the launch of 
Geostationary Orbiting Environmental Satellite (GOES)--15, the final 
spacecraft in the latest series. GOES-15 joined three other GOES 
spacecraft in assisting the Agency's forecasters to more accurately 
track life-threatening weather from tornadoes, floods, and hurricanes 
to solar activity that can impact satellite-based electronics, 
communications, and power industries. In FY 2010, NOAA satellites also 
provided key support in the rescue of 281 people throughout and near 
the United States by providing their location to emergency responders.
    The proposed reorganization would also affect some programs within 
the National Environmental Satellite, Data, and Information Service 
(NESDIS), which would be renamed the National Environmental Satellite 
Service (NESS), as all three of its Data Centers would be transferred 
to the Climate Service. The FY 2012 budget request for NESS is $2 
billion, which we will invest in multiple satellite acquisition 
programs for the continuity of critical weather, climate, and 
oceanographic data. NOAA requests an increase of $687.8M for the Joint 
Polar Satellite System (JPSS), which is NOAA's responsibility under the 
former National Polar-orbiting Operational Environmental Satellite 
System (NPOESS) program. Polar satellites provide critical weather 
forecasting for the $700 billion maritime commerce sector and provide a 
value of hundreds of millions of dollars to the fishing industry. The 
satellites save approximately $200 million each year for the aviation 
industry in ash forecasting alone and provide drought forecasts worth 
$6-8 billion to farming, transportation, tourism and energy sectors. 
Both civilian and military users will use JPSS data and products, which 
will continue to fulfill NOAA's requirements to provide global 
environmental data used in numerical weather prediction models for 
forecasts. On behalf of NOAA, the National Aeronautics and Space 
Administration (NASA) will serve as the lead acquisition agent for 
JPSS, which supports the afternoon mission requirements. The Department 
of Defense will continue the acquisition of early morning orbit assets. 
NOAA is committed to working with our partners to complete the 
transition from the NPOESS program and to assure the continuity of 
Earth observations from space.
    The GOES-R series satellites will provide critical weather 
observations for severe weather events, such as hurricanes, and also 
provide key enhancements in observational capabilities for climate, 
oceans and coasts, and the space environment. This program is the next-
generation of geostationary satellites and provides mission continuity 
through 2036. NOAA continues to support the GOES-R program with a re-
phasing, taking us from a two-satellite program to a four-satellite 
program with the addition of two optional satellites (GOES-T&U), while 
still providing continued satellite engineering development and 
production activities for GOES-R and GOES-S.
    An uninterrupted climate record is critical to understanding global 
sea level rise, which directly threatens coastal communities and 
ecosystems through increased exposure and erosion, more intense storm-
surge and tidal flooding, and loss of natural habitat due to drowned 
wetlands. Therefore, NOAA is requesting an additional $33.0 million to 
continue development of the Jason-3 satellite, which will provide 
continuity of sea surface height measurements, ensuring an 
uninterrupted climate record of over 20 years. The Jason-3 mission is a 
joint U.S.--European funded partnership. NOAA requests an $11.3 million 
increase to partner with the Taiwan National Space Organization for the 
launch of 12 satellites to replenish and upgrade the Constellation 
Observing System for Meteorology, Ionosphere, and Climate (COSMIC) 
satellite constellation. This program is a cost effective means of 
obtaining information about temperature and moisture in the atmosphere 
around the globe, which will improve forecasting accuracy.
    In addition, a requested increase of $47.3 million will support, in 
cooperation with NASA, refurbishing the existing NASA Deep Space 
Climate Observatory (DSCOVR) satellite and its solar wind sensors and 
developing a Coronal Mass Ejection Imager. The data and information 
provided by DSCOVR will support the operations of the Space Weather 
Prediction Center, which generates accurate and timely 1 to 4 day space 
weather forecasts and warnings. Space observations of geomagnetic 
storms are vital to reduce negative effects to power grids, GPS, 
telecommunications, the health and safety of astronauts, and the 
viability of satellite systems.
Oceanic and Atmospheric Research (OAR)
    The major change as a result of the proposed reorganization to 
create a Climate Service (described above) is that NOAA would also 
strategically realign its existing core research line office, the 
Office of Oceanic and Atmospheric Research (OAR), to strengthen the 
agency's overall science enterprise and advance the atmospheric and 
ocean, coastal, and Great Lakes research and applied science goals 
expressed in the America COMPETES Reauthorization Act of 2010. OAR will 
refocus its work to serve as an innovator and incubator of new science, 
technologies, and applications, and an integrator of science and 
technology across all of NOAA.
    NOAA is committed to strengthening and integrating NOAA's science 
enterprise consistent with the President's call for science and 
innovation. NOAA's request includes $212 million for OAR to continue 
strengthening core capabilities, such as improving our understanding of 
ocean acidification and its impacts, and promoting conservation and use 
of America's coastal resources through our renowned Sea Grant Program, 
one of our many direct links to universities, citizens, and communities 
around the Nation. NOAA will also invest in the future by supporting 
innovation in weather forecasting science that can inform clean, 
renewable energy generation, which is related to an MOU with the 
Department of Energy. In FY 2012, NOAA requests $2 million to support 
research in targeted wind resource regions across the Nation. Funding 
will advance weather forecast accuracy and quality to allow for more 
efficient implementation of wind power usage in the United States.
    Another core capability at NOAA is exploration. The NOAA Ship 
Okeanos Explorer is among the most technologically advanced research 
vessels and platforms for ocean exploration in the United States. In FY 
2012, NOAA is requesting an additional $1.5 million to advance the 
operations of the Okeanos Explorer with the operation of telepresence 
technology, which enables scientists, educators, and others to 
participate and lead ocean exploration missions from remote shore-based 
Exploration Command Centers; to operate and upgrade the ship's 
autonomous and remotely-operated vehicles; provide additional 
scientific days at sea; and reduce our huge knowledge gap of what lies 
in the deep ocean.
National Marine Fisheries Service (NMFS)
    NMFS conserves, protects, and manages living marine resources to 
sustain marine ecosystems, afford economic opportunities, and enhance 
the public's quality of life. Rebuilding our Nation's fisheries is 
essential to preserving the livelihoods of fishermen and related 
industries. In 2008, U.S. commercial and saltwater recreational 
fisheries supported 1.9 million full- and part-time jobs and generated 
$163 billion in sales impacts.\1\ In FY 2012, NOAA requests $1.001 
billion to support fisheries and protected resource management to 
ensure an optimal balance between conservation objectives and economic 
opportunities.
---------------------------------------------------------------------------
    \1\ Fisheries Economics of the United States, 2008: http://
www.st.nmfs.noaa.gov/st5/publication/fisheries_economics_2008.html
---------------------------------------------------------------------------
    NOAA is making important strides to end overfishing, improve 
fishery management, and put fisheries on a path to sustainability. 
Working with the Regional Fishery Management Councils, in FY 2010, five 
fisheries stocks were rebuilt. Based on estimates, rebuilding U.S. 
fisheries would increase the current dockside value by an estimated 
$2.2 billion (54 percent) annually from $4.1 billion to $6.3 billion 
annually. In FY 2012, NOAA will continue to maximize the potential of 
the Nation's most economically important fish stocks through sound 
science and management. NOAA will invest $67 million to expand annual 
stock assessments to continue to ensure Annual Catch Limits (ACL) are 
based on the best available science. ACLs and accountability measures 
(AM) are required under the 2007 reauthorization of the Magnuson-
Stevens Fishery Conservation and Management Act for all non-exempt fish 
stocks, including overfished stocks, by the end of 2011 to end 
overfishing. This investment will help verify that NOAA successfully 
ended overfishing ensuring ACLs are set at the most optimal level 
possible so that the return for fishermen is maximized while 
maintaining the health of the resource.
    NOAA will invest $3 million to improve the timeliness and quality 
of catch monitoring in recreational fisheries to ensure recreational 
fisheries are not unnecessarily restricted due to a lack of data. This 
is part of a broader effort to work more closely with the recreational 
fishing community.
    In addition to sound science, robust management strategies are 
vital to sustainable fisheries. In 2010, NOAA released the National 
Catch Share Policy, and we will continue to support consideration of 
catch share management by the Councils. Catch share programs, which 
include limited access privilege programs and individual fishing 
quotas, dedicate a secure share of fish to individual fishermen, 
cooperatives, or fishing communities. In the United States, catch 
shares are currently successfully implemented in 15 fisheries from 
Alaska to Florida, and local Fisheries Management Councils are in the 
process of developing them in several additional fisheries. Catch share 
programs are difficult and sometimes controversial to implement, and we 
recognize that some in Congress are concerned about them. But they have 
yielded significant financial and ecological benefits to the fisheries 
that utilize this system. Both here and in other countries, catch 
shares help to eliminate overfishing and achieve annual catch limits, 
improve fishermen's safety and profits, and reduce the negative 
biological and economic effects of the traditional ``race for fish.'' 
This budget includes $54 million to support the voluntary establishment 
of catch share programs by those Councils that want to utilize this 
tool to achieve the Magnuson-Stevens Act requirements. We want to 
support those Councils that believe that catch shares are the way to 
better manage their fisheries but need assistance in designing and 
implementing them.
    In addition to fisheries, NOAA manages protected resources, such as 
marine mammals and turtles. This requires balancing conservation 
objectives and economic opportunities, including commercial fishing 
activities and energy development. Investments in priority research in 
recovery actions are required to mitigate harm and maximize economic 
potential. In FY 2012, NOAA will invest an additional $2.5 million 
dollars to increase NOAA's capacity for protected species stock 
assessments that provide the foundation of information for decision 
makers. We will continue supporting the Species Recovery Grants Program 
with a requested $8.0 million increase to provide grants to states and 
tribes to conduct priority recovery actions for threatened and 
endangered species, including restoring habitat, monitoring population 
trends, developing conservation plans, and educating the public.
    Managing fisheries and protected species to their full biological 
and economic potential requires additional efforts focused on 
maintaining habitat and ecosystem functioning. NOAA requests $24 
million for the Community Based Restoration Program, including a new $5 
million effort to address larger restoration projects. NOAA plans to 
increase fish passage, spawning, and rearing habitat by implementing 
large-scale ecological restoration in targeted areas such as wetlands. 
To support the restoration and protection of the Chesapeake Bay, we 
request a $5 million increase for regional studies in the Bay. NOAA 
supports the President's Executive Order to restore the Chesapeake Bay 
by providing enhanced understanding of the relationships between the 
Bay's living resources and habitat, coordinating protection and 
restoration of key species and habitats across jurisdictional lines, 
and supporting a coordinated system of monitoring platforms distributed 
across the Bay.
National Ocean Service (NOS)
    In July 2010, President Obama signed Executive Order Number 13547 
that adopted the Final Recommendations of the Interagency Ocean Policy 
Task Force and established the National Policy for the Stewardship of 
the Oceans, Coasts, and the Great Lakes--reinforcing the notion that 
``healthy oceans matter.'' NOS supports this policy by translating 
science, tools, and services into action to address coastal threats 
such as climate change, population growth, port congestion, and 
contaminants in the environment. A pivotal event in 2010 was the 
explosion of the BP Deepwater Horizon oil rig on April 20. Within 
hours, NOAA responded, providing targeted weather forecasts and oil 
spill trajectory maps and mobilizing personnel and assets to respond to 
what evolved into the largest oil spill in U.S. history. The Office of 
Response and Restoration (OR&R) played a critical role in our response 
and is leading our efforts to assess damage caused by the event. Over 
half of the U.S. Gross Domestic Product is generated in coastal 
counties,\2\ and it is expected that the Nation's coastal population 
will grow by more than 11 million by 2015 so NOS' services will become 
more vital to the coastal environment and economy.\3\Increasing 
population density, growing economies, and increased vulnerability to 
damages from hazards such as sea level rise or storms, habitat loss, 
and other threats makes the task of managing coastal resources more 
difficult. The President's FY 2012 Budget includes $559.6 million to 
enable NOAA to continue delivering a dynamic range of nationwide 
coastal and Great Lakes scientific, technical, and resource management 
services to meet the vision of being a Nation with safe, healthy, 
resilient, and productive oceans and coasts.
---------------------------------------------------------------------------
    \2\ Kildow, J. T., C. S. Colgan, and J. Scorse. 2009. State of the 
U.S. Ocean and Coastal Economies 2009. National Ocean Economic Program.
    \3\ Population Trends Along the Coastal United States: 1980-2008, 
NOAA 2004.
---------------------------------------------------------------------------
    Human uses of ocean resources (e.g., ocean-based energy, marine 
aquaculture, commercial and recreational fishery products, shipping and 
navigation services, and other activities) need to be managed 
holistically. In FY 2012, NOAA requests $6.8 million to develop an 
agency-wide capability to conduct and support Coastal and Marine 
Spatial Planning (CMSP) in U.S. waters. CMSP will help us manage ocean 
resources in a systematic way by evaluating competing ocean uses, 
assessing opportunities and potential cumulative impacts, and working 
with industry, state and local decision makers and other stakeholders, 
to explicitly make trade-off decisions. CMSP is designed to focus on up 
front planning. There are no regulations involved. It does not add 
another layer of government but is designed to be more efficient, 
effective, and reduce redundancies in decision making. With the new 
Ocean Policy we are already witnessing efficiencies in our mapping and 
data collection across the Federal government, with data and 
information from the Departments of Defense and the Interior, and from 
Coast Guard, being integrated into a common database, which will be 
available to the public in the future.
    The Final Recommendations of the Interagency Ocean Policy Task 
Force include a framework for implementing CMSP across the United 
States in a manner that respects regional variation of issues and 
priorities. This initiative will significantly advance the Nation's 
capability to effectively and transparently match competing human uses 
to appropriate ocean areas. To further support CMSP and regional ocean 
governance, NOAA requests $20 million to establish a competitive grants 
program that will support regional ocean partnerships, such as the Gulf 
of Mexico Alliance, South Atlantic Governor's Alliance, and the West 
Coast Governor's Agreement on Ocean Health that are vital for advancing 
effective ocean management. In addition, a proposed increase of $1 
million in our mapping program will significantly improve the 
accessibility of integrated ocean and coastal mapping data.
    The BP Deepwater Horizon oil spill is a stark reminder that spills 
of national significance can occur despite the many safeguards and 
improvements that have been put into place since the Oil Pollution Act 
of 1990 was enacted. The risk of oil spills remains a concern given 
increases in marine transportation, pressures to develop domestic areas 
for drilling offshore, aging infrastructure susceptible to sea level 
rise and violent storms in U.S. coastal areas, and opening the Arctic 
to both shipping and oil development. NOAA's OR&R is the lead trustee 
for the public's coastal natural resources and an international 
scientific leader for oil spill response, assessment, and restoration. 
NOAA requests $2.9 million to develop an oil spill research and 
development program within OR&R to advance response technologies and 
capabilities, especially in deep water and Arctic environments. With 
this funding, NOAA will support external grants for essential research 
to provide useful information, methods, and tools for planners, oil 
spill responders, and assessment practitioners. Also in support of oil 
spill response, NOAA requests a $5.0 million increase to implement the 
U.S. Integrated Ocean Observing System (IOOS) Surface Current Mapping 
Plan using high frequency (HF) radar surface current measurements. HF 
radar provides information vital to oil spill response, national 
defense, homeland security, search and rescue operations, safe marine 
transportation, water quality and pollutant tracking, and harmful algal 
bloom forecasting.
    The BP Deepwater Horizon oil spill made it apparent that the 
economic and social well being of our coastal communities depends on 
the environmental suitability of our coastal resources. Numerous 
coastal communities, not only in the Gulf but all along our coasts, are 
being impacted by the loss of fishing opportunities. In FY 2012, NOAA 
requests $8 million to create a National Working Waterfronts grant 
program to assist fishing-dependent coastal communities. These grants 
will assist distressed or at-risk fishing communities by providing 
resources for planning, capacity building, and other activities to 
support economic diversity, resource conservation, and economic capital 
growth.
Program Support
    To deliver sound science and services, NOAA must continue to invest 
in its information technology (IT) infrastructure, the maintenance and 
construction of NOAA facilities, and the specialized aircraft and ships 
that complete NOAA's environmental and scientific missions. A requested 
$9.1 million increase will reduce the risk of cyber attacks by 
enhancing security monitoring and response capabilities and consolidate 
our IT infrastructure into a single enterprise network. This budget 
includes an additional $10 million to support major restoration and 
modernization projects to address critical facility condition 
deficiencies and to improve safety and operating conditions in support 
of NOAA's mission. The FY 2012 request ensures that NOAA's fleet of 
vessels is able to provide reliable, compliant, and high-quality ship 
support to NOAA programs through several increases. For example, $3.4 
million is requested to support environmental compliance costs, 
including ensuring that NOAA ships are not contributing to water 
quality degradation. Efforts to extend and maintain the life of the 
NOAA ships will be supported through an $11.6 million increase for 
repair periods.
    Also critical to the execution of NOAA's mission is our investment 
in the future. Students in K-12 we support today become our workforce 
of the future; undergraduate and graduate fellowship recipients provide 
immediate dividends; and each and every citizen touched by our literacy 
and outreach efforts become stewards of our natural resources. These 
down payments help to fulfill the President's commitment to education. 
The FY 2012 budget includes $20.8 million for NOAA's Office of 
Education to implement and manage scholarship programs aimed at 
fostering competitiveness in science, technology, engineering and math 
by providing quality educational opportunities.
Conclusion
    Overall, NOAA's FY 2012 budget request reflects the commitment that 
Secretary of Commerce Gary Locke and I have made to the President to 
out-educate, out-build, and out-innovate our competitors in support of 
robust economic job growth. We have made tough choices to cut lower 
priorities and identify cost-savings measures. The resources that are 
requested in this budget are critical to the future success of meeting 
our needs in climate, fisheries, coasts, and oceans. I look forward to 
working with you, the Members of this committee, and our constituents 
to achieve the goals I have laid out here through the implementation of 
the FY 2012 budget. Thank you for the opportunity to present NOAA's FY 
2012 budget request. I am happy to respond to any questions the 
committee might have.
                                 ______
                                 
    Dr. Fleming. I thank the witness. Next, I would like to 
entertain a motion from Mr. Young.
    Mr. Young. Mr. Chairman, I would just like to ask for 
unanimous consent to submit questions to the witnesses to 
answer. I will be unable to return at three o'clock. I have 
another engagement.
    Dr. Fleming. Thank you, sir. Without objection. We have 
another motion?
    Ms. Bordallo. Thank you, Mr. Chairman. I am also the 
Ranking Member on an Armed Forces Subcommittee, and the meeting 
starts at 3:00, and so I would like also to submit my questions 
as they are important, and I have talked with the Ranking 
Member of this Committee if they could be submitted into the 
record.
    Dr. Fleming. Without objection. OK.
    What we will try to do is to get through another couple of 
sets of questions or first set of questions here, and then we 
will probably break, and come back. We may have a span of about 
15 or 20 minutes. So certainly stay tight for that.
    I thank you for your testimony, and I will now recognize 
Members for questions, and first, I shall recognize myself for 
five minutes. As I review your budget request, it strikes me 
that approximately 61 percent of the NOAA budget is for 
satellites, weather, and climate programs.
    And while I realize that your agency has more than one 
mission, it begs the question do you believe that you are doing 
an adequate job of managing the Nation's natural resources with 
less than half of your budget spent on both science and 
management of those natural resources.
    Dr. Lubchenco. Mr. Chairman, one thing that I think is 
important to recognize is that even though the budget is laid 
out by line offices, weather satellites, fisheries, et cetera, 
what we do is actually quite integrated.
    Weather information depends on satellites, search and 
rescue operations for mariners depend on that weather 
information, that satellite information. Managing the 
fisheries' resources depend very much on that information as 
well.
    So it is possible to do the partitioning and the 
calculations the way that you did it, but it is also important 
to recognize that those different pieces reinforce one another 
and integrate.
    I believe that the satellite--obviously the largest portion 
of our program is in satellites, and those satellites are 
vitally important to saving lives, protecting property, 
enabling American businesses, and they directly support a lot 
of information about oceans that enable better resource 
management, whether it is harmful algal blooms, or 
understanding whether it is an El Nino or La Nina year, that 
kind of information is vitally important to managing the 
resources.
    Dr. Fleming. Madam Secretary, I certainly appreciate what 
you are saying on that. However, satellites are darn expensive. 
I think that we lost a couple of them in the oceans here not 
too long ago. They were not yours I don't believe.
    But still there is a lot of risk to that, and one of the 
things that we are seeing is day to day important aspects of 
calculating, and surveying the fish population. We are getting 
further and further behind on that, while we are spending more 
and more money on very expensive technology, the majority of 
the budget as you can see.
    And we are looking at long term trends. Of course, I am 
sure that there are some day-to-day priorities in there, too, 
but it really is concerning, I think, more and more folks over 
are we really being penny wise and pound foolish by spending so 
much money on things that have a very vague and maybe long term 
aspect, while we are ignoring some things.
    So I will go into the second question real quick before I 
run out of time. While I don't mean to minimize the importance 
of other NOAA activities, Mr. Schwaab's testimony, written 
testimony, cites commercial and recreational fisheries 
supporting 1.9 million jobs, and generating $163 billion in 
sales impact in 2008.
    That is a huge economic driver and yet all of that is 
predicated on having good data on which to make management 
decisions. I wanted to note that your budget request includes 
an increase of $16 million to expand annual stock assessments.
    While updating stock assessments is important, without 
having recent survey information, the updated assessments will 
still be flawed unless the new survey data is included. And 
what of course that means is garbage in and garbage out. If we 
are using 10-year-old data, and then putting in the computers 
and spitting something out that is an updated number, it does 
not mean that it is accurate obviously, and back to my original 
statement, we have to be more and more conservative over time, 
which limits the commercial fishing opportunities.
    So my question is this. How much funding have you allocated 
for increasing and updating fishing surveys?
    Mr. Schwaab. Thank you, Mr. Chairman. While the specific 
increase that is mentioned speaks to the stock assessment line, 
there is significant research that is ongoing on an annual 
basis that does provide the important data on an updated basis 
to feed into those stock assessments.
    In fact, one of the things that we have done in recent 
years, particularly in the Southeast, is expand survey data 
associated with some of the data-poor stocks in the Southeast 
and in the Gulf Coast to help to inform those stock assessment 
deliberations.
    I don't have it at my fingertips the actual total dollars 
associated with that full assessment work, but I will pull that 
out here momentarily for you.
    Dr. Fleming. OK. Well, I thank you for that, and my time is 
up. We are down to close to five minutes to the end of our 
first vote, and so we are going to go ahead and temporarily 
adjourn, and return in about 15 minutes. We only have two 
votes, and we will begin with Mr. Sablan, the Ranking Member of 
the Subcommittee.
    [Recess.]
    We are back in session, and I thank the witnesses for 
hanging around, and being prompt, and we have Members filtering 
in, but right now we have the most important Member, and that 
is the Ranking Member of the Subcommittee, who is next up for 
questions, and with that I will yield to the gentleman.
    Mr. Sablan. Well, thank you very much, Mr. Chairman, and 
thank you for your kind words. Dr. Lubchenco, the Deep Ocean 
Assessment and Reporting of Tsunami System, or DART, is a 
network of what, 39 buoys, that provide tsunami warnings to the 
United States Coast by satellite communication.
    And as we saw this month with the Japan earthquake and 
tsunami, the DART system can save lives and property. But I 
understand that a single DART buoy in the Gulf of Mexico, and a 
DART buoy closest to the Northern Mariana Islands, are both out 
of commission.
    The Marianas have the DART buoys that provide some warning, 
but there is only one buoy in the Gulf. We had that big 
earthquake in Haiti last year, and no tsunamis. But I would 
like to know how serious the threat of a tidal wave is to the 
Gulf States.
    And I would like to know what kind of funding we need to 
make sure that our warning system does not have holes in it 
like it does now.
    Dr. Lubchenco. Delegate Sablan, thank you for that 
question. It is true that 32 of our 39 DART buoys are currently 
operational, which means that seven are not. Often times those 
DART buoys become detached, or have instruments that are not 
functioning.
    It is vitally important that we maintain them in an 
operational state, and normally there is a plan to do that by 
serving them periodically and repairing whatever is not 
functional.
    However, those buoys are important for the whole tsunami 
warning effort, but the original--the initial warning is based 
primarily on the seismic information that comes from knowledge 
about where an earthquake happens, how deep it is, where its 
position is, and how strong it is.
    And based on that information--for example, in the case of 
the Japan earthquake, nine minutes after the earthquake 
happened, our first tsunami warning was issued. So the initial 
warning does not depend on the DART buoys, but as a tsunami, 
and in this case, is traveling across the Pacific, those buoys 
detect the passage of the tsunami, confirm that it is there, 
and also provide additional information via satellites to 
enable the models to be updated, and the warnings to be 
refreshed.
    So it is either coming faster, or slower, or stronger, or 
weaker. So those DART buoys are critically important to the 
overall effort, but they alone are not responsible for the 
initial warning.
    It is important that those buoys remain in operational 
state. Our research operation in our Seattle lab has developed 
some new tsunami buoys that are smaller and easier to deploy, 
and that is an opportunity for the future to add additional 
buoys at less cost.
    Mr. Sablan. Thank you very much. I have a question for Mr. 
Schwaab, please. Some stocks requiring annual catch limits and 
accountability measures are considered data poor, including 
stocks in the Western Pacific.
    Is the agency going to provide guidance to the regional 
fishery management councils on setting annual catch limits for 
species with little known information? And what would it take 
to get us information needed to set annual catch limits for 
data poor fisheries, and does NOAA's budget reflect that cost?
    Mr. Schwaab. Yes, sir. Thank you, Delegate Sablan. There 
are a couple of components to the answer to your question. The 
first is how we deal with those stocks today for which we have 
inadequate assessments.
    There are a number of techniques that are utilized to 
essentially provide proxies for setting appropriate annual 
catch limits where the status of stocks is currently unknown.
    One example that I would identify for you is the ability, 
for example, to look at recent historical catches, recent 
historical landings, and set catch limits that are based upon 
those recent historical landings, and that is based upon the 
inherent assumption that catches have been stable over time, 
and that stocks have been stable over time.
    And we have been continuing to work with the councils 
around the country in providing that kind of assistance as it 
relates to data for stocks. The second part of your question 
which speaks to bringing all of the stocks up to some standard 
level of assessment on a regular basis, and let me if I could 
just use this as an opportunity to go back and clarify the 
Chairman's question of a few moments ago.
    And that is that the current budget, the Fiscal Year 2012 
budget proposal, includes $228 million, which captures all of 
the assessment and monitoring efforts that go into setting and 
undertaking appropriate assessments now.
    Under the current proposed budget, which does include that 
$15 million increase, which includes both the paperwork side of 
stock assessment, as well as some increases for surveys on the 
water, if we stay on that track, achieve that level of budget 
appropriations and stay on that track, that would give us the 
ability to by our estimate provide adequate stock assessments 
for 167 of the 230 priority stocks by 2016.
    Obviously there are a number of other stocks beyond that, 
and it would take considerably more money than is currently 
proposed.
    Mr. Sablan. Thank you, Mr. Chairman. My time is up. Thank 
you.
    Dr. Fleming. OK. I thank the gentleman for his questions. 
Next we have Mr. Runyan. You have five minutes, sir.
    Mr. Runyan. Thank you, Mr. Chairman. My first question is 
for Dr. Lubchenco. We have discussed that we are asking for a 
$36.6 million increase in the catch shares program.
    But the President's budget request also calls for a 
transfer of $1.4 million from the fisheries research management 
program into catch shares, and also six million from the 
cooperative research to the national catch shares.
    And we have only had three new catch shares programs that 
have been implemented since 2009. What is the intent of 
flooding the catch shares program with all this money?
    Mr. Schwaab. If you don't mind, Mr. Runyan, I will answer 
that.
    Mr. Runyan. That would be fine, yes.
    Mr. Schwaab. Thank you. So just to provide some background 
on the catch share line item. As you indicated one of the 
benefits of catch share base program are significant new 
observer collection of data, observer-based collection of data 
at sea.
    So it certainly is--there was a shift when this line was 
first created of cooperative research dollars into that catch 
share line of approximately $4 million. It did not necessarily 
reflect, or it did not reflect a change in the purpose of that 
funding.
    It did reflect the premise that observer based data and 
dock side monitored data associated with the catch shares 
program does feed into the kind of data needed to set 
appropriate catch limits and update those catch limits over 
time.
    Mr. Runyan. My issue though is that we start implementing 
catch shares, and I actually sat down with a group of fishermen 
out of Long Beach Island, New Jersey, last week when I was back 
in the district, and they expressed concern that a lot of catch 
shares enforcement on people are going to push the small people 
out, and in essence making your ability to monitor that easier 
by not allowing the little guy to go out, or the recreational 
fisher, let alone to go out and fish.
    Mr. Schwaab. So, thank you. First of all, I think one of 
the--just a couple of comments in response. One of the key 
elements or benefits of catch shares is that regardless of the 
type of fisherman, it provides for that fisherman more 
opportunity and flexibility to fish a dedicated share of an 
annual quota.
    There are and have been concerns in a number of fisheries 
that as catch share programs are designed, they be designed in 
such a way as to protect the interests of small communities, 
remote communities, and in the case of a number of fisheries, 
small boat fishermen.
    We have expressed a preference to have councils when they 
develop their management programs to look at catch shares as a 
potential option to be utilized. We have not at all mandated 
catch share implementation, nor have we necessarily expressed 
catch shares as a panacea to address all of our fishery 
management challenges.
    But in the place where catch shares have been implemented, 
including some of the programs that you mentioned over the last 
few years, they have been designed by fishery management 
councils that include the engagement of fishermen at the local 
level, and appropriate provisions are designed in to protect 
against the kind of concerns that you articulated.
    Mr. Runyan. It is just alarming with the amount of money be 
moved into those types of programs that many people in my 
district disagree with, but to touch on--well, doctor, you have 
been familiar with ICCAT, and you have been involved with that 
for many years.
    And specifically we have a lot of issues with our 
swordfish, and we may lose our share to a lot of European 
countries because we have our regulations in place kind of 
restricting us because of bycatch, and different things.
    How are we going to be able to protect our fishermen and 
enable them to actually fish for swordfish, but if we lose our 
share to Europe, they are not so concerned about the bycatch 
issue. So how are we going to address this?
    Dr. Lubchenco. Congressman, we worked very diligently this 
year at ICCAT to protect the interests of our fishermen, and to 
have other nations who fish, and in this case in the Atlantic, 
abide by similar kinds of bycatch reduction strategies.
    And we were successful in accomplishing some of that. There 
is more work to be done. I think that it is important to also 
note that we did preclude some bad things from happening to our 
fishermen.
    There were some attempts to take away some of our quota, 
which did not happen, and I think that that--I just want to 
emphasize that we were working together with and on behalf of 
our fishermen at the ICCAT meetings.
    Mr. Runyan. Well, thank you, because it they lose that 
quota, it is even harder to get it back. So my time is expired. 
Thank you, Mr. Chairman.
    Dr. Fleming. I thank the gentleman. Next is the gentlelady 
from Hawaii.
    Ms. Hanabusa. Thank you, Mr. Chairman. First of all, Dr. 
Lubchenco, I would like to congratulate you and to thank NOAA 
on your great work. As you know, the Pacific tsunami warning 
center did an extraordinary job for those of us in Hawaii.
    We did not suffer any loss of lives, but more importantly 
than that, they were spot on in their predictions of what would 
happen. And I was watching it from here, and it was very 
interesting to see that even CNN and any other newscasts, 
including the Japanese one, were quoting the Pacific Tsunami 
Warning Center.
    However, having said that, we all know that the Pacific 
tsunami, since its inception, I believe, has been an earmark, 
and therefore it will not appear in the budget in the form that 
we have seen it in the past.
    Because of its importance, I would like to know what you 
will do, and how it appearing within the budget, whether we are 
going to suffer any loss as far as the funding for the Pacific 
Tsunami Warning Center, especially when we feel that its 
importance has proven more so as a result of the recent tsunami 
and earthquake in Japan.
    Dr. Lubchenco. Thank you for that question and thank you 
for the compliments to our team. They really did a spectacular 
job. The current tsunami warning program has benefitted 
significantly from funds that were received from the digital 
television spectrum auction proceeds.
    That has been used to do a number of different things to 
update, and to enhance the tsunami community preparedness 
through grants, and to do research to improve our tsunami 
forecast inundation models, and to enhance the communication 
and information technology infrastructure at the warning 
centers.
    So some of those funds have already been awarded. Others 
are yet to come, and we were instructed to use a balance of 
those for some of those different functions, and we are on 
track with that right balance.
    So I think that that part is very much to the benefit of 
the overall program. There does remain some concern about our 
ability to continue to maintain the DART buoys, and the tide 
gauges that need constant maintenance, in addition to the 
actual Tsunami Warning Centers themselves.
    And we will continue to include all of those to the best of 
our ability as we make very tough funding decisions, not just 
this year, but down the road.
    Ms. Hanabusa. If we are suffering the budget cuts that you 
saw, for example, in H.R. 1, would the buoys and DART, and the 
various monitoring devices that are necessary, would they also 
be affected?
    Dr. Lubchenco. You know, I think that it is probably 
impossible to say exactly what the impacts of funding at that 
level will be. I would say that cuts that are that deep, and 
especially ones that come so late in the year, would 
undoubtedly have to impact almost every one of our programs.
    But to be more specific than that, and specify how, so much 
of it depends on when we know for sure what the Fiscal Year 
2011 budget is, and what instructions come along with that.
    Currently, we are not issuing the contracts to go out and 
service the tsunami DART buoys because of the CR. So those 
buoys that are not functional are not being serviced. So there 
is--we can still issue warnings. The rest of the buoys are 
functional. They provide some redundancy.
    But the more that we go into this year and the deeper the 
cuts are, the more seriously they will affect every single 
program, and I am sure that that one will be affected, as will 
all the others.
    Ms. Hanabusa. Thank you. Mr. Chairman, I am out of time, 
but I do have some questions for Mr. Schwaab that I would like 
to submit in writing with your permission.
    Dr. Fleming. Without objection.
    Ms. Hanabusa. Thank you.
    Dr. Fleming. OK. Our next questioner is the gentleman from 
Florida, Mr. Southerland.
    Mr. Southerland. Doctor, thank you for appearing today. I 
wanted to ask some questions regarding the catch limits. How 
many fishery closures have been implemented as a result of the 
new annual catch limits and accountability measure provisions 
of the 2006 Magnuson Act reauthorization?
    Dr. Lubchenco. Congressman, I am going to ask Eric Schwaab, 
as the Director of NOAA Fisheries, to respond, please.
    Mr. Southerland. Sure.
    Mr. Schwaab. Congressman Southerland, thank you. So, there 
are obviously as a result of the Magnuson Act reauthorization a 
number of different constraints that have been imposed upon 
fisheries.
    So I am not sure what the currency would be to count them, 
but let me just provide a quick summary of what has transpired 
and a few examples. So there is a requirement that we set under 
the reauthorized Magnuson Act catch limits and accountability 
measures for all stocks that were undergoing over-fishing in 
2010, and for all stocks at the conclusion of 2011.
    There are also requirements that are associated with 
rebuilding so that those stocks for which a rebuilding was a 
requirement, there was essentially a number of fish that was 
below some historical value.
    Catch limits have to be set in a way to allow a rebuilding 
trajectory, in addition to maintaining some sustainable 
production of the stock at its current level. So there have 
been a number of tools that have been put in place to achieve 
those kinds of restrictions, and a number of those relate 
specifically to, for example, constrained catch limits, thereby 
allowing seasons to continue.
    Mr. Southerland. Let me ask you this, because I don't have 
as much time as you do.
    Mr. Schwaab. Yes.
    Mr. Southerland. The science--I know that the stock surveys 
and the assessments that have been done--and I live in Panama 
City, Florida, and so I am along the Gulf Coast--regarding the 
red snapper in the Gulf of Mexico. Do you believe that the red 
snapper are overfished?
    Mr. Schwaab. So, red snapper in the Gulf are not overfished 
now. Overfishing is not occurring. There is a rebuilding plan 
that is well underway, and that rebuilding process does lead to 
constrained season lengths.
    Mr. Southerland. Sure.
    Mr. Schwaab. That has been the problem that has been most 
acutely felt by fishermen.
    Mr. Southerland. But as far as the shrinking of the season, 
and it is a 60-day season now, and obviously where we are in 
our geography with storms, and hurricanes, and tropical weather 
patterns, clearly boats for hire, they are not going to carry a 
group out 40 or 50 miles with four to five foot seas.
    So they have a very small window to be able to make a 
living in that 60-day period. So if red snapper are not 
overfished, and if red snapper are 10 or 15 years and older, 
and you can get your hook to the bottom without hooking up, why 
would we then not make the necessary movements so that we can 
give these individuals an opportunity to make a living and 
perpetuate a family business?
    Mr. Schwaab. So overfishing has ended. The rate of 
exploitation has been brought under control. There is a goal of 
achieving a certain, and maintaining a certain, abundance 
level, that without careful management, we could slide back 
into a situation where either overfishing was occurring, or we 
were not achieving the abundance.
    Mr. Southerland. But we clearly have a healthy fishery when 
it comes to red snapper in the Gulf of Mexico, and so my point 
is that just because what could happen--and we need to manage, 
and don't get me wrong, but when are we also equally concerned 
about the healthy numbers of businesses that are trying to 
survive?
    And I will not even bring in the moratorium due to the oil 
spill. I mean, is there any good news for these guys who are 
about to go under and who are not getting 15 percent increases 
to their budget?
    Mr. Schwaab. So there was good news last year, and we 
worked very closely with the council of the----
    Mr. Southerland. The good news last year was that we had an 
oil spill, and the fishery was closed down due to that. So that 
was not really good news along our coast.
    Mr. Schwaab. So what we did do was work closely--I am 
sorry, but the good news was certainly not the oil spill, but 
what we did do is work closely with the council to open up days 
in the fall, where I think were very much appreciated by 
fishermen.
    Mr. Southerland. And how many days was that?
    Mr. Schwaab. There were a series of, I believe, seven or 
eight consecutive weekends.
    Mr. Southerland. Right, and let me tell you just from being 
there, OK? When school starts in Alabama, Georgia, Tennessee, 
Mississippi, there is nobody coming down to fish. I mean, I 
appreciate that, but that was too little, too late, for many of 
the people.
    And these are very dear friends of mine, and families that 
I have known for an awful long time. My last question. In light 
of the economic situation that we find ourselves in this 
country, and the incredible unemployment numbers around the 
country, the American family budgets and small business budgets 
are hurting the way they are, how can we justify a 15 percent 
increase in a budget when the American family is not enjoying 
that, and has not over the last three or four years?
    Dr. Lubchenco. Congressman, I think the answer is pretty 
simple, and that is that the services that we provide at NOAA 
are vitally important to those businesses, to recovering jobs, 
and to recovering the economy, and to helping communities.
    For example, a number of people have highlighted satellites 
as being a great big huge part of our budget, which they are, 
but it is those satellites that provide the information that 
give the Panama City folks hurricane warnings. So those----
    Mr. Southerland. Well, quite honestly, Madam, nobody along 
our coast should die from a hurricane. You know when it comes 
off the Coast of Africa, you have three weeks to prepare.
    So it does not just sneak up on you, but when they are 
going to foreclose on your house, and your car, and you can't 
send your kids to college because you closed your family 
business, and so I appreciate the dollars in the additional 
satellites, but right now, we are talking about urgent matters 
for the men and women, hardworking men and women, that cannot 
make their living in the Gulf.
    And I just find that to ask for more money that continues 
to happen here, and totally be disconnected from the reality of 
the American hardworking people that are suffering, I think is 
irresponsible.
    Mr. Chairman, I am out of time, and so I cannot even yield 
you back time because I don't have any.
    Dr. Fleming. I am sorry, but I sort of expected her 
response.
    Dr. Lubchenco. I am happy to respond, although I am not 
sure there really is a response.
    Dr. Fleming. I don't think there is.
    Mr. Southerland. I release her from having to answer that.
    Dr. Fleming. OK. I thank the gentleman for his questions, 
and next is Mr. Pierluisi from Puerto Rico.
    Mr. Pierluisi. Thank you, Mr. Chairman. I would like to 
address my remarks to Dr. Lubchenco. Specifically, I echo the 
appeal that NOAA reinstate the funding through the Center for 
Sponsored Coastal Ocean Research in 2012 for the four external 
coral reef research institutes.
    The Caribbean Institute is housed at the University of 
Puerto Rico, and the research that it sponsors is integral to 
local management of coral reef resources in the Caribbean.
    Without this funding reefs would be placed at unacceptable 
risks, and the local governments would be without the science 
needed to make sound scientifically based management decisions. 
So I echo that.
    I am also troubled by the proposed reductions in funding 
for the coastal zone management grants, and for the National 
Estuarine Research Reserves, one of which is Jobos Bay located 
in Puerto Rico.
    But my main concern has to do with the tsunami warning 
centers, and let me explain what I am talking about. NOAA has 
determined that Puerto Rico and the United States Virgin 
Islands, along with the four Pacific Coast States, face the 
greatest tsunami hazard in the United States.
    And I am troubled that right now that we only have two 
tsunami warning centers, and I immediately, with what we have 
seen in Japan, the first thing that anybody with common sense 
would think about is what if there is an event like that in the 
Caribbean.
    We have had two events in the past in the Caribbean with 
terrible loss of life, and the centers that cover us are five 
thousand miles away. They are the closest one, the one in 
Alaska.
    And so you wonder, and I am not an expert, but you wonder 
what if something happens in Alaska, and that center is 
compromised, and then what happens with us? It would be 
terrible, apart from everything else that a center does.
    So my question to you is that I introduced legislation by 
the way, a bill recently, and it was supported by the Ranking 
Member Markey to direct NOAA to set up a center in the 
Caribbean located in Mia West, and minimize the expense. The 
local government of Puerto Rico would match whatever Federal 
funding is involved for that purpose.
    But I ask you are we--I mean, are you comfortable that we 
are taken care of the way that this is set up right now? Isn't 
it justified to have a third center for the Caribbean, where 
four million American citizens reside?
    Dr. Lubchenco. The two existing tsunami warning centers 
operate and provides some redundancy to one another. They also 
are capable of doing tsunami warnings and models for anyplace, 
and they don't need to be located in close proximity to where 
an event happens to do the modeling and to issue a warning.
    The critical things are for people in the area to 
understand what to do when a warning happens, and to have buoys 
and tide gauges, but especially tide gauges, in an area to give 
real-time information about the changes that are underway, to 
complement the seismic information, the earthquake information 
that goes into the initial modeling.
    And so I believe that our current system does serve the 
people of the Caribbean, Puerto Rico, the Virgin Islands, 
adequately. It would be the resources--I think that the higher 
priority is to make sure that as many communities are as what 
we call tsunami ready.
    That they understand what to do when a warning happens, and 
that they are prepared, and that there are good communication 
mechanisms, and that is as important, and that can happen 
without having a physical center in a particular place.
    So there are obviously many different elements to having a 
community be adequately protected, and I think that the 
priority for the communities that you are concerned about is to 
make sure that they understand what to do, and that there is 
good information with tide gauges so that we can understand 
what is happening.
    Mr. Pierluisi. Thank you. My time is up.
    Dr. Fleming. OK. Thank you. I next recognize Mr. Wittman 
from Virginia.
    Mr. Wittman. Thank you, Mr. Chairman, and Dr. Lubchenco, 
and Mr. Schwaab, thank you so much for joining us today. Dr. 
Lubchenco, I wanted to begin with you, and start by saying how 
much I appreciate NOAA's efforts on the Chesapeake Bay 
restoration.
    I think that it is critical that efforts on the Chesapeake 
Bay are focused on results, and that there is accountability 
with that particular program, and that we know exactly how many 
dollars are being spent on that effort across all the different 
agencies.
    I think that is absolutely critical. We talk about jobs and 
the economy. The Chesapeake Bay is a job engine. It is an 
economic engine. It has to improve as far as water quality.
    We see what that bay produced economically back in the 
1950s. I think it is very, very achievable to get it back to 
that particular state. If you look at the production of seafood 
in that basin, just seafood, just that production, and not the 
recreational element, a tremendous economic impact. We need to 
be back there.
    And I wanted to ask you that in NOAA's Fiscal Year 2012 
budget projections, can you tell me what in that budget will 
emphasize the restoration of the Chesapeake Bay, and what 
elements of that budget will put in place the goals and 
objectives of Executive Order 13508?
    Dr. Lubchenco. Congressman, thank you for recognizing those 
efforts. As you obviously know well, this is an interagency 
effort, and NOAA plays a supporting, but not a leading, role in 
this.
    There is $5 million in our Fiscal Year 2012 request in 
support of the Chesapeake Bay, and that research would go to 
improving the quality of the research, new technologies and 
infrastructure, field and lab equipment, for example, to enable 
us to better measure and track what is happening.
    There is support for the proposed oyster restorations, 
which is vitally important, and those are anticipated down the 
road. We have a key role in providing information to decide 
where, and how, and exactly when that will happen.
    So that is what is in our budget this year, our budget 
request, and I am very hopeful that we can deliver on that 
because it is vitally important for all the reasons that you 
articulate.
    Mr. Wittman. Absolutely. Well, I want to make sure that 
there is accountability there. My concern in the past is on 
tsunami projects, and I will give you an example. In the oyster 
restoration program, oysters were put down, and Cownose Rays 
came and ate them up like potato chips.
    We spent a lot of money there, and I want to make sure that 
we don't repeat those mistakes of the past, and that was a 
joint project with the Corps of Engineers. I want to make sure 
that again there is accountability there.
    Resource restoration has a direct economic impact, but for 
our waterman, and then if you look at resources, as far as fin 
fish, and what that helps commercially, also recreationally.
    Those, I think, need to be the emphasis of the dollars that 
are spent. We today can't afford to do the niceties. We have to 
do the necessities, and the necessities are to get that by to 
be a more productive body of water to make sure that it has an 
increased economic impact.
    So I appreciate what you represent there. Mr. Schwaab, I 
want to move to you and something directly associated with 
that, is Atlantic sturgeon. We all know the potential that 
comes up with the evaluation for an Endangered Species listing 
for Atlantic sturgeon.
    Anybody that fishes in the bay knows that potentially that 
could be catastrophic across the entire bay as far as the 
harvest of all kinds of other fin fish. We all know that the 
sturgeon come up the by, and they spawn, but they also can be 
incidental catch on any gear that is out there.
    So I appreciate you extending the public comment period for 
the potential listing of Atlantic sturgeon, but I also wanted 
to encourage you that through that evaluation process that you 
take the time to carefully consider every comment that you will 
get from folks up and down the bay, because we all know that is 
absolutely critical.
    We know that we ought to be protecting all of our species, 
but we have to look, too, with interspecies relationships, and 
then also be realistic. As you have heard Mr. Southerland say, 
there is an economic impact with all these fishery management 
decisions.
    We want to make sure that the agency is mindful of that, 
and that that is reflected in those decisions. So I would like 
to get your comment on where we are with the Atlantic sturgeon 
evaluation of the ESA listing?
    Mr. Schwaab. Yes, sir, Mr. Wittman. Thank you. We were 
pleased to work with you, and to honor your request to extend 
the comment period. I do know that during that comment period 
that we did receive additional comment from Natural Resources 
officials in Virginia.
    That comment period is now closed. Those comments will be 
given full and absolute consideration. We are on a track that 
would result in a listing recommendation by the fall, later on 
in the fall of this year, at which point obviously there will 
be additional opportunities for discussion.
    Mr. Wittman. Thank you, Mr. Chairman.
    Dr. Fleming. The gentleman's time is up. I next recognize 
Mr. Markey.
    Mr. Markey. Thank you, Mr. Chairman, very much. Thank you 
for being here. I very much appreciate it. If I were to stop 
one of my constituents in Medford Square and ask them what is 
the National Oceanic and Atmospheric Administration, I would 
probably get blank stares.
    NOAA is an agency that few in the public could correctly 
identify, but that is critical to keeping them safe and our 
economy running smoothly. Just this morning, they issued an 
alert for a massive storm barreling in to Boston later on 
tonight.
    This warning will allow people and businesses to prepare 
for an unbelievably huge storm here in April, and one that 
might push Boston's winter snowfall this year above Shaq 
O'Neal, and we are using him as a Shaq-O-Meter this winter.
    So we will use his height, and we are about to break the 
all time record. So I want to start with a question about 
satellites, which I understand has been a point of discussion 
here today.
    The Administration has requested about $1 billion in Fiscal 
Year 2012 to fund the joint polar satellite system to replace 
our aging weather and climate satellites.
    The National Weather Service recently reran the weather 
predictions for the 2010 Snowmageddon event without using NOAA 
polar satellite data, and found the impact to the accuracy of 
the weather forecasts was substantial, including forecasting 
less snow by at least 10 inches.
    Can you please describe the consequences if these funding 
levels for satellites are not met?
    Dr. Lubchenco. Congressman Markey, thank you for focusing 
on an area that is vitally important not only to NOAA, but to 
the country. The weather information that that we receive that 
is provided by the National Weather Service comes from two 
types of satellites; one of the geostationary satellites that 
sits way high above the earth, and stay in one place, and the 
others--and that provides our short term weather information.
    The longer term forecasts, the severe storm warnings, are 
provided by a different type of satellite, the polar orbiting 
satellites, and this program, the joint polar satellite system, 
is vitally important to replace the current satellite that is 
up there now, and the one that we intend to launch in the fall.
    Each of those has a finite life span, and it is very 
important that this year we continue to construct the 
instrument and the satellites for launch in a number of years 
to minimize the gap in coverage.
    Currently, because of the continuing resolution for Fiscal 
Year 2011, we are already likely to experience a gap of between 
12 and 18 months at the minimum, where we will not have the 
ability to do the severe storm warnings at the quality that we 
do today.
    Mr. Markey. Thank you, and we have to make sure that 
funding is there. Two weeks ago, I, along with my colleagues, 
Congressmen Frank, Keating and Tierney, sent a letter to 
Secretary Locke urging him to coordinate with the Departments 
of Treasury, Labor, Housing, and Urban Development, and the 
Small Business Administration, to assess and evaluate all 
options to provide assistance to Massachusetts' fishing 
communities negatively impacted by the transition to a new 
fisheries management plan.
    Can you update us on what steps have been taken to address 
our request?
    Dr. Lubchenco. Congressman, if I may, Eric, would you 
comment on that, please.
    Mr. Schwaab. Yes, thank you, Congressman. Yesterday, the 
Secretary announced the deployment of economic assessment teams 
under the leadership of the Economic Development Administration 
into six ports across New England, including New Bedford and 
Gloucester.
    Those teams will work very closely with local officials to 
address some of the transition challenges associated with not 
only current fishing regulation, but some of the ancillary 
challenges that they face in trying to maintain working 
waterfronts in current economies.
    Mr. Markey. Thank you. I have one final question here. 
Senators Kennedy and Saltonstall in 1954 authored legislation 
to use money from tariffs on imported seafood products to fund 
programs to promote the health of domestic fisheries.
    Currently the majority of that fund are transferred to 
NOAA's operations, research, and facilities account, reducing 
the funds available for fishing industry projects. Could you 
give me an update on what programs are using the Saltonstall 
and Kennedy funds, and how they are promoting the health of 
domestic fisheries?
    Mr. Schwaab. Yes, sir, and just by way of additional 
background, beginning in 1979, and through 1985, Congress 
enacted a transfer from the promote and development account to 
the operations, research, and facilities account within NOAA.
    Beginning in Fiscal Year 1986, the Administration also 
began to include that transfer to that same account as a part 
of its budget request. These funds essentially come off of the 
top of that account, and so they support a wide range of 
programs within NOAA fisheries that are supporting that.
    Mr. Markey. Could you give a report to the Committee on 
what that funding is used for in writing?
    Mr. Schwaab. Yes, sir, we can.
    Mr. Markey. Thank you, and thank you, Mr. Chairman.
    Dr. Fleming. I thank the gentleman, as his time has 
expired. Dr. Harris is recognized.
    Dr. Harris. Thank you very much, Mr. Chairman. Dr. 
Lubchenco, good to see you again. The last time I saw you, it 
was at Science and Technology, and since we spoke with you 
then, and asked you some questions, I actually have had a 
chance--and one nice thing about our schedule is that we 
actually get to go out once a month, and get outside the 
Beltway for a week and actually talk to people.
    I could not convince them of the popularity of catch 
shares. I just could not convince my local recreational 
fishermen or my commercial fishermen. So maybe you have 
different folks that you all talk to.
    Mr. Chairman, I would like to enter into the record the 
vote from the amendment to the continuing resolution that dealt 
with catch shares, and if we could include that just to show 
that it may be popular somewhere, but it is not even popular on 
the Floor of the House apparently, the catch share program.
    And let me just ask a couple of questions. One is about the 
sea bass, the Black sea bass in the Mid-Atlantic. Now, my 
understanding is that--and, Mr. Schwaab, maybe you are the one 
to ask, but it is currently not overfished, but yet it is 
facing a closure.
    Is this because we are awaiting new data, and is it true 
that the data that we are basing that on is not 9-year-old 
data?
    Mr. Schwaab. Dr. Harris, the situation with respect to 
Black sea bass is not dissimilar to the one that we discussed 
in the Gulf with respect to red snapper. Overfishing has ended 
and there is a rebuilding plan that is underway, and 
requirements to manage the fishing rates, and to essentially 
maintain a certain stock size over time.
    And the fishing effort has the potential to substantially 
outstrip the productive capacity of that stock. So while we 
have a substantially healthier Black sea bass population in the 
Mid-Atlantic than we have had for a long time, the ability of 
the fishermen to essentially fish that stock so hard to lead to 
backsliding does lead to continued requirements to manage 
seasons, and to put into place accountability measures that 
should those catch rates exceed articulated catch limit levels, 
or established catch limit levels, that seasons can then be 
modified to bring that into account.
    I do not believe as I sit here that that is based on a 9-
year-old assessment, but I would have to get back to you with 
the specific data with respect to that.
    Dr. Harris. All right. I would appreciate that, because 
obviously as you know, our experience with the blue crab 
population is that it can fluctuate greatly, and if we are 
dealing even with 3-year-old blue crab data in the bay, we 
would have had a lot of fishermen out of jobs.
    And we are supposed to care about jobs, and the 
recreational fishing industry is a huge job creator in the bay 
as it is for my colleague here from Florida, I am sure. Let me 
just ask about the scallops.
    The catch share for the scallops, as some of my commercial 
fishermen have said, that when you initiate these catch shares, 
what happens is that kind of the big guys then with all the big 
boats end up buying the licenses, because that is really what 
they are, and can in fact because of those techniques actually 
strip the bottoms in fairly large areas, because these are 
large boats fishing over small areas.
    So it really does change the nature of the fishery. Is that 
true, Dr. Lubchenco? Are they telling me the truth there, that 
it does change when you change a fishery from one with a group 
of large boats, to one with a lot of small boats, and it 
changes the fishery, like the scallops?
    Dr. Lubchenco. Congressman, I will let Eric respond to 
scallops specifically, but just as general comment, let me say 
two things. One is that NOAA does not impose catch share 
programs on anybody.
    The fishery management councils choose if a catch share is 
an appropriate management tool for them for a particular 
fishery. So just to clarify that, and a catch share program 
needs to be well designed, and you can design it so that the 
big guys cannot buy out all the little guys.
    That is a design element that we believe should be included 
in the design part of the program.
    Dr. Harris. All right. Thank you. Let me just follow up a 
little bit about that with these catch shares, because 
obviously NOAA must have something to do with it, because that 
is where we went into the budget to try to stop it.
    What happens when a fisherman retires, and when they decide 
that they don't want to do it anymore? My understanding is that 
license, that catch share, is kind of for sale. They can sell 
it to someone; is that correct?
    So the government is creating something that in the end 
that you can really never take away, because that fisherman 
will feel that that is their possession. So what is the rush, 
because my understanding is that with increased funding that 
there would be a whole lot of new catch share programs probably 
initiated.
    So what is the rush to create a program that is so hard to 
reverse, if it could be reversed ever because of the value that 
you create when you give someone--I mean, it is like the 
ultimate license. I am an anesthesiologist, and if I had a 
license to anesthetize a certain number of people in a year, 
and I could sell that to someone, or conversely if I take a few 
years off and don't anesthetize as many people as I am doing 
right now, when I go back to do it, I would have to buy a 
license from someone to anesthetize people.
    But that is the equivalent of what we are doing. So what is 
the rush since we are creating something that is of permanent 
value that would be so hard to take away if like the plan did 
not work out?
    Mr. Schwaab. Thank you, Dr. Harris. I think that it is 
important to recognize that expressly by statute these are not 
permanent rights. These are privileges that are conveyed.
    The only distinction between the privileges that are 
conveyed in the case of catch shares versus those that are 
conveyed through some other management system, is that they are 
more narrowly a share of an annual catch limit, the privilege 
to catch a share of an annual catch limit is conveyed to an 
individual, or groups of individuals.
    So the privilege is to fish in other fisheries under other 
systems, like a days at sea system, that exist in a number of 
these fisheries prior to the imposition of catch shares, is 
transferrable as a license in the same way that a permit, or a 
privilege, under a catch share system would be transferrable.
    Dr. Harris. Well, thank you, Mr. Chairman. I am out of 
time, but I will be submitting additional questions. Thank you.
    Dr. Fleming. The gentleman's time is up. Let us see. Mr. 
Duncan from South Carolina, you are now recognized.
    Mr. Duncan. Thank you, Mr. Chairman, and Mr. Schwaab, 
thanks for being here today. As you may or may not know, no 
Shortnose sturgeon have been detected in the upper Watery River 
in South Carolina at least since 1896.
    1896, which was before the Catawba Waterway Dams were 
actually built, which was in 1904. Yet, as a part of the hydro 
relicensing process, the NMFS has indicated that the dams are 
actually impinging the ability of the shortnose sturgeon to 
move up the river, and is looking to require the licensee to 
either construct fish passages on all the dams, or remove them 
entirely.
    This is unfortunate, because it seems that all the 
stakeholders were working together to reach a satisfactory and 
sustainable agreement on relicensing issues, and then suddenly 
the regional office of NMFS backtracks, and overrules the local 
NMFS office.
    And instead of a balanced and pragmatic decision on 
resource allocation, we have a stalemate that could include 
environmental litigation if recommendations are not put into 
the final relicensing permit.
    And this is a total 180-degree shift from what FERC 
included in its environmental impact statement for the project, 
which has an agreement from the local NMFS office, and the 
relevant State, local, and industrial, and environmental 
stakeholders.
    FERC's recommendation was to reserve its right to reopen 
the license if and when a shortnose sturgeon were detected in 
the river, and everyone, including the licensee, agreed to that 
as the best solution.
    The fact is that NMFS wants to increase the cost of the 
project to protect a fish that has not been within 70 miles of 
the dams in over 100 years. So my question is simple. What new 
data are you using to justify this decision that anything short 
of fish passages or total dam removal are unacceptable?
    And am I correct, but didn't NMFS issue a draft report on 
shortnose sturgeon last year for another project in South 
Carolina where RDR, as well as FERC, took exception to some of 
the conclusions, and basically said it lacked credibility?
    From what I understand the fish are actually around that 
dam, and so I will just let you address that, please, shortly.
    Mr. Schwaab. Yes, sir, Mr. Duncan. Thank you. I do know 
that we have issued preliminary and modified prescriptions for 
fish passage under the Federal Power Act. So there is 
essentially a draft biological opinion that has been issued.
    There has not yet at this point been a final biological 
opinion that has been issued to FERC under this project 
proposal. I do know that FERC is anxious to have that final 
biological opinion expeditiously so that they can move forward 
with the process.
    As to some of your references as to the historical reports, 
honestly, I can't speak to them as I sit here today.
    Mr. Duncan. If you want to take a historical approach, I 
can go back over a hundred years and tell you that there has 
not been a sturgeon seen in that river, and I think it is 
ludicrous.
    And this is what the American people get frustrated with 
our government when it is very obvious to the common man out 
there that shortnose sturgeon aren't anywhere near this 
project, but you are going to hold it up in costs, and rate 
payers in South Carolina and North Carolina that benefit from 
the hydroelectric project, you are going to cost them money 
because it is going to trickle down through costs of 
litigation, and it is just wrong.
    So I will just leave it there, and I want to ask Ms. 
Lubchenco this. NOAA has prided itself on the work that they 
do, and the budget increase that they have requested, and I 
hate to be the bearer of bad news to you, Ma'am, but we are $14 
trillion in debt, and we are running a $1.6 trillion deficit 
this year.
    Unemployment remains far too high in this country, and 
definitely in South Carolina, where I come from. We cannot 
accommodate your budget request, especially when these requests 
will be used to prove that global warming is going to kill us 
all, polar bears included.
    This request comes despite the fact that the so-called man-
made global warming alarmists have been thoroughly discredited 
with the e-mails scandal, fake data, and yet here we are at a 
budget hearing, where you are asking for more money.
    The Nation is broke. We cannot afford to be wasting money 
on improperly orders of priorities like global warming studies. 
You really want us to out-educate, out-build, out-innovate our 
competitors when we are imposing these kinds of restrictions on 
them through the global warming criteria? I don't think you do.
    So if you really wanted to create jobs, you would have 
abandoned these global warming fairy tales and shifted your 
efforts to ending the drilling moratorium in the Gulf of 
Mexico. Our economy is in the tank, Madam, instead of gasoline 
in our tanks.
    So let us focus here on actually putting Americans back to 
work. It is time to get serious, Mr. Chairman, and I appreciate 
them coming for their budget request, but the American people 
expect better of us. Thank you.
    Dr. Fleming. The gentleman yields back his time. I now 
recognize Mr. Pallone from New Jersey.
    Mr. Pallone. Thank you, Mr. Chairman, and I apologize for 
coming in so late and missing everything, but I did want to be 
here because I am very concerned about this catch share 
program.
    And I noticed when I came in and there were some other 
Members asking about it, and so I hope that is not repetitive, 
but I wanted to ask Dr. Lubchenco, and also Mr. Schwaab, with 
regard to NOAA's Fiscal Year 2012 budget request, it 
reallocates more than $6 million from cooperative research, and 
$11.4 million from the fisheries research and management 
program to the national catch share program.
    I am confident that work for the Partnership for Mid-
Atlantic Fishery Statistics that is occurring in my district 
and along the Mid-Atlantic is a glowing example of the success 
of cooperative research.
    However, NMFS does not support the Partnership for Mid-
Atlantic Fishery Statistics. It was funded through an earmark, 
which we know how is no longer possible unfortunately.
    So I wanted to know how does NOAA intend to ensure that 
cooperative research continues to continue to improving 
fisheries management when it is being cut by more than $6 
million? I would ask each of you.
    Dr. Lubchenco. Congressman, I would like Eric to respond to 
that if I may, please. Thank you.
    Mr. Pallone. Sure.
    Mr. Schwaab. Congressman, thank you. We did speak a little 
to this point earlier. The shift that occurred from the 
cooperative research line into the catch share line reflects 
less a change in the function or purpose of that money, and 
more the fact that with catch share systems there are at-sea 
observers and dockside monitor costs that do generate 
cooperative related data that feed into the management systems.
    Mr. Pallone. But my problem is that NOAA's national catch 
share policies explicitly states that NOAA does not advocate 
the use of individual private anglers or catch shares. Now, my 
district has thousands of private anglers, and attracts 
individual anglers from all over the Nation.
    And these anglers support local small businesses, and 
drives the coastal economy. By placing cooperative research 
funds under catch shares, which my understanding by your own 
policy is not recommended for my district, I think you are 
putting pressure on the Mid-Atlantic Regional Fisheries 
Management Council and other regional management councils, to 
adopt catch shares to get at that funding.
    And, of course, I have said this over and over again, and 
it is not just me that is saying it. My fishermen are saying it 
as well. So how do you propose that we help the recreational 
fishing communities gain confidence in the data collection of 
fisheries management when you are moving essentially one 
confidence builder out of their reach?
    I mean, you understand that they have very little faith in 
the management programs--I was going to say schemes, but I 
guess I should watch my language--because they just think that 
the data is not accurate.
    And they have been spending their own money literally to 
try to get more accurate data. So I just don't know how you are 
going to gain their confidence in the data collection of 
fisheries management when you are making this move that you are 
saying. That is my problem.
    Mr. Schwaab. Thank you, Mr. Pallone. Let me make a couple 
of other additional comments. One, that this budget also 
reflects a proposed increase for the marine recreational 
information program that gets much more directly at some of the 
catch and effort data associated with recreational fisheries.
    Second, I would just note that while--that the 
preponderance--most of the catch here, if not all of the catch 
here, are in programs that have been implemented, and have been 
implemented for the commercial side of fisheries.
    So in the case where you have a mixed sector fishery with 
recreational fishermen catching a share of the quota, and 
commercial fishermen catching a separate share of the quota, 
placing commercial fishermen under a catch share system has 
been shown to yield benefits in accountability to total 
allowable catches, and invest them in----
    Mr. Pallone. Well, let me ask you this. What about what I 
said? I will let you respond, and I know that I am almost out 
of time, but they all tell me, and I think that you are putting 
pressure on the Mid-Atlantic Council, to adopt catch shares to 
get at this funding that you now say that has been moved over 
for cooperative research. So what is your response to that?
    Mr. Schwaab. So the bulk of this funding, that is, this 
increase, is actually proposed to support the Pacific troll 
individual quota program, which was developed after seven years 
of work by the Pacific Fishery Management Council.
    Mr. Pallone. So they are not going to get the money anyway 
in the Mid-Atlantic; is that what you are saying?
    Mr. Schwaab. No, what I am saying is--what I am trying to 
say is that we are not creating an economic incentive whereby 
the only place to go to secure appropriate funding is in the 
catch share programs.
    There are catch share funds to support programs that have 
been adopted. There are opportunities for additional programs, 
but there are also significant other opportunities in there.
    Mr. Pallone. But it seems to me that they have been 
severely limited then by switching this over and cutting it, 
and you are going to limit the opportunities. But thank you 
anyway. Thank you, Mr. Chairman.
    Dr. Fleming. Thank you, sir. The gentleman's time is up. 
Thank you. Well, we have had such an enjoyable time that we 
have decided that we would like to stay for another round. Are 
you up for it today, witnesses?
    Dr. Lubchenco. We are here at your pleasure, sir.
    Dr. Fleming. OK. Thank you. I will recognize myself for 
five minutes, and I want to come back to something that I 
brought up earlier about this idea of surveys and assessments.
    Is it fair to say that if stock surveys and assessments are 
not done in a timely manner by your agency, fishermen pay the 
price because of the scientists and managers having to build 
several layers of precaution into the models in order to set 
harvest levels?
    Mr. Schwaab. Yes, sir, it is fair to say that if stock 
assessments are not done in a timely fashion, there is 
additional precaution that is built into the management.
    Dr. Fleming. And would you acknowledge that that has an 
economic impact, certainly to the commercial fishermen out 
there who have a smaller and smaller window if you will of 
fishing opportunities?
    Mr. Schwaab. So certainly that can have, and in many cases 
does have, an economic impact, yes, sir.
    Dr. Fleming. OK. Thank you. Is it fair to say that multiple 
layers of precaution may be built into a single fisheries 
harvest level?
    Mr. Schwaab. The two general types of precaution that are 
built into most of these catch limits and accountability 
measures are management uncertainty, which is generally a small 
part of whatever precaution buffer might be included, and then 
scientific uncertainty, which is based on the best advice of 
the collection of scientists that contribute to the stock 
assessment.
    Dr. Fleming. OK. Now, I understand that the NOAA fleet will 
be able to spend about half of the amount of time in Fiscal 
year 2011 as it did in Fiscal Year 2010 for fisheries stock 
assessments.
    Now, I heard you earlier testify--and I forget the numbers 
exactly--that you have plans by, I think, Fiscal Year 2016 or 
2015, to close significantly the gap. So, explain this to me, 
because we are actually seeing that there will be less time for 
the fleet, and yet we are going to do more surveys or do catch 
up of surveys?
    Mr. Schwaab. Yes, sir. So there are reductions in fleet 
days available to us as result of a variety of budget and 
operational circumstances. The Fisheries Service does 
contribute additional funds to essentially purchase back some 
additional days at sea.
    Further, the fleet, at least as it supports the Fisheries 
Service, provides a platform for a number of surveys and work 
that goes beyond those specific to the support of stock 
assessment.
    And as an agency, we do, as we look ahead, prioritize 
meeting some of those basic stock assessment requirements above 
some of those other surveys that will be experiencing even 
deeper cuts as a result.
    Dr. Fleming. What I am trying to understand though is that 
if you have less fleet days, and yet you feel that you are 
going to actually catch up on the surveys, how do you recognize 
that?
    It would seem to me that it would go just the other 
direction. What compensates for those fewer days at sea?
    Mr. Schwaab. Well, first of all, just to emphasize what I 
said a moment ago, which is that the proportional shift 
downward associated with fisheries stock assessment related 
surveys, is less than that which is reflected across the fleet.
    In addition, I would say that we also work from a number of 
other platforms through cooperative research, and through 
contract of commercial vessels, to provide important survey 
platforms that have helped us to maintain as close as we can 
the trajectory that we are on.
    Dr. Fleming. How do you set that priority in terms of 
fisheries? Who gets the attention first?
    Mr. Schwaab. Well, there are a number of factors that we 
employ there, but obviously some of those relate to the 
importance to fisheries around the country, and their relative 
value.
    There are other factors that do come into play there, such 
as volatility, and other biological judgments made primarily by 
our scientists.
    Dr. Fleming. Some of the data is as old as 10 years, and so 
are you putting that at a priority as well, going back to those 
that are maybe the most overdue?
    Mr. Schwaab. Yes, sir. Within the--well, obviously there 
are some stocks for which we lack any kind of significant data, 
and its relative importance that has placed them in that 
position.
    So clearly length of time since the last assessment is a 
factor, but it is not necessarily the--it certainly is not the 
only, and not even necessarily the dominant factor.
    Dr. Fleming. OK. My time is up. I now recognize Mr. Sablan, 
the Ranking Member.
    Mr. Sablan. Thank you very much, Mr. Chairman. Mr. 
Chairman, I would like to ask for unanimous consent to enter 
into the record a statement supporting the Fiscal Year 2012 
request for fisheries data collection and monitoring submitted 
by the Pure Environmental Group.
    Dr. Fleming. Without objection, so ordered.
    Mr. Sablan. Thank you very much, Mr. Chairman. Mr. Schwaab, 
what are the economic benefits of rebuilding fisheries in 
Fiscal Year 2012 and beyond?
    Mr. Schwaab. Thank you, sir. So we estimate that if we 
rebuild currently the estimated dockside value of domestic 
fisheries to be about $4.1 billion.
    Our economists estimate that if we rebuild all stocks to 
the desired level that we could increase that number by 
approximately 50 percent, up over $6 billion in dockside value, 
and obviously spinoff values associated with economic 
productivity and jobs.
    Mr. Sablan. And you have also recently said that we are 
turning the corner with regard to measures in place for 
overfishing in United States waters in 2011. So would we be at 
this point if Congress had decided not to fund the key 
fisheries programs, including stock assessments, of service 
cooperative research, and surveying and monitoring projects?
    And what would the impact on ending overfishing be if 
funding levels in H.R. 1 were enacted?
    Mr. Schwaab. So the corner that we are turning--and thank 
you, sir--is that by the end of 2011, under requirements 
prescribed by the Magnuson Act, we will have in place catch 
limits and accountability measures to assure that overfishing 
is not occurring in Federally managed stocks.
    That obviously also then include placing us on the 
trajectory to rebuilding to the kind of benefits that I 
described moments ago. If we are in a position where over time 
we lack the ability to conduct appropriate science to maintain 
that course, there is, of course, the prospect of backsliding.
    There is, of course, also the other eventuality that we 
spoke of a few moments ago, and that is increased scientific 
uncertainty buffers that would undermine total quotas.
    Mr. Sablan. All right. Thank you. Dr. Lubchenco, six of the 
nine regions identified in the National Oceanic policy have 
established regional ocean partnerships. The remaining three, 
including the Pacific Territories, do not have such 
partnerships. Are there plans to extend these regional 
partnerships to the Pacific Territories?
    Dr. Lubchenco. I believe that it is appropriate to have a 
dialogue with the Pacific region to identify what would be in 
the best interests, and would be supported by that region.
    One of the principles of the regional planning program is 
to enable a bottom up approach, and to really empower local 
communities, States, and territories, to participate actively 
in comprehensive planning for their regions.
    And the model that was envisioned works appropriately for 
States that have Governors alliances in place already, but 
where those don't, I think that a dialogue with the region is 
certain appropriate to see how to best meet those needs.
    Mr. Sablan. All right. And so how does NOAA funding 
requests for regional ocean partnerships and coastal and marine 
spatial planning represent an effective and efficient use of 
yearly budgeted funds?
    Dr. Lubchenco. The Fiscal Year 2012 budget includes 
requests for $20 million for regional planning grants that 
would be awarded on a competitive basis to different regions, 
and I can tell you that there is keen interest on the part of 
many, many regions in having that assistance, and in doing that 
planning.
    The additional $6.7 million, I believe it is, is in support 
of providing information, including integration of data, which 
will benefit all regions so that there is information that is 
available to do planning.
    Mr. Sablan. Thank you very much, and my time is up.
    Dr. Fleming. OK. I thank you. Mr. Southerland, you have 
five minutes.
    Mr. Southerland. Thank you, Mr. Chairman. Mr. Schwaab, I 
want to ask you that if many fisheries may not have updated 
stock assessments for up to five years, is it fair to assume 
that the measures to stop overfishing are not successful until 
the new stock assessments are completed?
    Mr. Schwaab. So we would have catch limits and 
accountability measures in place, but we would not actually be 
able to verify the end of overfishing until the next stock 
assessment.
    Mr. Southerland. And the reason that I asked that question, 
and I think you may have touched on that on a previous 
questioner, but I think you stated, and I just wanted to get a 
verification that obviously if that is the case, and we won't 
know for five years if we don't have the data, that it unfairly 
penalizes fishermen.
    It could unfairly penalize those fishermen for that year 
period while we are waiting for new data.
    Mr. Southerland. So clearly more frequent and more accurate 
data is to everybody's benefit?
    Mr. Schwaab. Absolutely. I mean, we are in agreement there.
    Mr. Southerland. OK. Where in the budget are you addressing 
NOAA's current inability to give management councils this 
socioeconomic data that they are statutorily obligated to 
consider when making fisheries management decisions?
    Mr. Schwaab. So we do have within our regions economists 
and socioscientists that do support the councils in pursuit of 
that data, and those would be reflected in the overall sort of 
management and assessment portion of the budget.
    Mr. Southerland. Well, it seems to me, and again I am just 
learning this process, but it seems to me that obviously the 
fisheries have to have this data that they get from you, and 
they have a statutory obligation.
    And yet I see in the budget that we are shifting, and there 
is the increase--and Dr. Lubchenco, you can even address this 
as well, but the increase in the satellite that was about $700 
million, and where you want that to go.
    And then of course the climate services. So if we have the 
pressure that the fisheries have the statutory requirement to 
have good data in order to make their management decisions, and 
there is a problem because we don't have the data, and we all 
agree that we don't have the current data that would be best, 
then why are we diverting monies into other areas, and moving 
in other areas, when there is a statutory violation because 
they don't have the data that is needed?
    I mean, what is the justification to continue pushing money 
in areas when there is statutory violations being incurred 
because they can't make good decisions because they don't have 
the data that you provide?
    Dr. Lubchenco. Congressman Southerland, the current process 
involves providing councils with economic information when they 
are in the process of putting together a fishery management 
plan.
    That is part of the routine process. We do that and we will 
continue to do that. The request in the budget for an increase 
of $15 million for stock assessments is to go out and get 
additional information about many of those stocks for which we 
would all like to have more current information.
    So we are not doing the trade-off that you are suggesting. 
I think that there is interest in having more money in every 
part of our budget, and we have done the best balancing and 
juggling that we can, which is why you see a strong emphasis on 
more money for stock assessments, because that is a bottleneck 
that is a critically important aspect to being able to know how 
well we are doing, and to be able to manage appropriately.
    Mr. Southerland. Well, since this focuses on--I mean, since 
this affects so many jobs, why would we not take--when you say 
that you have that request of $15 million, why would we not 
take that $15 million out of that $346 million that you want to 
use to create a new line item under climate services?
    I mean, there is money there, and why would we not--we know 
that awe have an issue, and we know that we have a problem with 
data. Why would you not take $15 million that you have already 
got, or that clearly has been in the budget in other line 
areas, and address that need?
    Dr. Lubchenco. Congressman, let me clarify that the 
proposal to create the climate services budget neutral, and so 
we are taking individuals, and labs that are currently in one 
place and just putting them together in another place.
    Not physically, but in terms of the organization. So that 
does not incur additional funds. The request for additional 
money for stock assessments is in fact a reflection of its 
importance.
    Mr. Southerland. When you do--and this is kind of a 
different direction, but when you do this and you create a 
climate services whole another division, does that require 
Congressional authority?
    Dr. Lubchenco. It does require congressional approval, but 
not necessarily legislation. But the budget request is included 
in the President's budget request to Congress as part of our 
package, and is to do this budget neutral reorganization.
    We currently provide climate services. We provide long term 
weather forecasts. I should clarify that anything that is 
longer than about four--I am sorry, two weeks, is considered 
climate in the way that we typically think of it.
    And so information about what is happening a few months 
down the road, or next year, is climate information, whether it 
is an El Nino year, or La Nina year. So we currently provide 
climate services, which is information about the future for 
planning purposes for farmers, for fishery managers, for 
others.
    And the climate service reorganization is intended to make 
it possible to do that more effectively and more efficiently.
    Mr. Southerland. Thank you, Mr. Chairman.
    Dr. Fleming. I thank the gentleman. Let us see. Ms. 
Hanabusa from Hawaii. Five minutes.
    Ms. Hanabusa. Thank you, Mr. Chairman. My questions are for 
Mr. Schwaab. Mr. Schwaab, as I understood your testimony, you 
said that the actual catch shares are established by the 
various regional fisheries, but it is based on information or 
data that you provide. Am I understanding that correctly?
    Mr. Schwaab. Thank you, Congresswoman. So the catch limits 
are set based upon science that is provided from surveys that 
come from a variety of different sources, and then those data 
come together in a stock assessment process for again 
scientists to review that data, and make assessments around the 
status of the stock, and its capacity to produce a certain 
number of fish sustainable.
    And so those are catch limits that are then adopted by the 
councils as a part of the fishery management planning process. 
The concept of catch shares is a management system which is a 
particular type of management system separate from the setting 
of catch limits and quotas.
    Ms. Hanabusa. So do you participate in any one of those 
processes, whether it is the catch share or the catch limits?
    Mr. Schwaab. So we in each of our regions have science 
centers, and regional offices, that work very closely with the 
fishery management councils, both in collecting and analyzing 
the science on which catch limits are set.
    And then we also work with the management programs that are 
recommended by the councils in a rulemaking process that the 
agency develops and adopts them.
    Ms. Hanabusa. Is the reason why we are seeing the transfer 
of funds is because your science needs to be augmented or 
updated?
    Mr. Schwaab. OK. So catch shares and the funds that have 
been the subject of a number of questions here, is a particular 
type of management approach. Traditionally, most of the 
fisheries are managed based upon essentially input controls; 
how many days at sea a fisherman can spend, and things like 
that.
    And they are generally applied in aggregate to a fishery. 
So all of the fishermen go out and fish against a common quota 
under certain umbrella rules. That leads to a number of 
sometimes unfortunate outcomes, like derby fishing, where all 
the fishermen go out together, and catch as many fish as they 
can, and as quickly as they can, and bring them back to dock, 
lessening their market value through increasing capture costs, 
and increasing risk of bad weather implications and that sort 
of thing.
    What a catch share based program does is that based upon a 
total allowable catch, assigns the privileges to catch a 
portion of that catch to a specific fisherman or group of 
fishermen.
    And there they are given more freedom to go out and catch 
the fish when and how they want. It provides them increased 
market opportunity, and it provides them increased business 
flexibility.
    And it also provides them the opportunity, for example, 
pursue fishing practices that minimize the catch of unwanted 
catch by catch and those kinds of things. There are a lot of 
positives to catch share based programs in the management 
system.
    Ms. Hanabusa. But does that also permit them to transfer 
those rights? In other words, can they then sell those rights?
    Mr. Schwaab. So as with many of the management programs, 
catch share or a days at sea permit, or anything like that, 
there are provisions that allow for the transfer of permits.
    Now, these permits all have underlying them only privileges 
and not perpetual rights to catch a certain amount of fish, and 
that is the same for the catch share program as it is for any 
of another commercial management----
    Ms. Hanabusa. But for a given year, for example, would one 
entity be able to then transfer their rights, or sell their 
rights, to another for that specific season, or that specific--
whatever that right is good for?
    Mr. Schwaab. Yes. Most of the programs, and they are all 
designed differently because they are designed by the councils 
based upon the needs of the local fishery, but most of them 
provide for some kind of a transfer of quota system.
    Ms. Hanabusa. Thank you very much.
    Mr. Schwaab. Thank you.
    Dr. Fleming. Well, that completes two complete rounds, and 
so I would like to say today thank you, and congratulations to 
Dr. Lubchenco, and Mr. Schwaab, for your testimony today.
    It has been very informative, and very responsive, and we 
do thank you for that. The Subcommittee may have additional 
questions for the witnesses, and we ask you to respond to these 
in writing.
    The hearing record will be open for 10 days to receive 
these responses. If there is no further business, without 
objection, the Subcommittee stands adjourned.
    [Whereupon, at 4:40 p.m., the Subcommittee was adjourned.]

    [Additional material submitted for the record follows:]

    [The prepared statement of Mr. Markey follows:]

     Statement of The Honorable Edward J. Markey, a Representative 
              in Congress from the State of Massachusetts

    Thank you, Mr. Chairman. If I were to stop one of my constituents 
in Medford Square and ask them what is the National Oceanic and 
Atmospheric Administration (NOAA), I would probably get blank stares. 
NOAA is an agency that few in the public could correctly identify but 
that is critical to keeping them safe and our economy running smoothly. 
Just this morning they issued an alert for a massive storm barreling 
its way to New England. This warning will allow people and business to 
prepare for another severe storm and one that may push Boston's winter 
snow fall this year above Shaq on the Shaq-O-Meter.
    Recognizing the critical role that NOAA plays across our economy, 
the Administration has requested $5.5 billion for 2012, an increase of 
$749.3 million from the enacted level for Fiscal Year 2010. Despite 
these fiscally austere times, NOAA has proposed $43 million for 
Fisheries Research and Management to provide accurate and timely 
information and analysis on fish stocks; $27 million for regional ocean 
partnership grants and coastal and marine spatial planning to decrease 
costs and delays and provide planning certainty for ocean-related 
industries; and a budget-neutral reorganization to stand-up a Climate 
Service to provide relevant, reliable, and timely information for 
managers, businesses, and all citizens to make decisions in the face of 
climate change.
    These forward-looking initiatives stand in stark contrast to H.R. 
1, which recklessly cut almost $400 million from the 2010 enacted level 
for NOAA and would prevent the reorganization to create a Climate 
Service. From tsunamis to hurricanes to oil spills, NOAA has been on 
the front lines of disaster response, and slashing funding will cut the 
life-saving services that this agency provides to every congressional 
district. I commend the Administration for proposing a budget that 
makes strategic choices to support our ability to prepare for 
disasters, to protect our coastal resources and communities, and to 
provide necessary climate products and services needed by all 
Americans.
                                 ______
                                 
    [A statement submitted for the record by Lee R. Crockett, 
Director of Federal Fisheries Policy, Pew Environment, 
follows:]

        Statement submitted for the record by Lee R. Crockett, 
      Director of Federal Fisheries Policy, Pew Environment Group

    The Pew Environment Group (PEG) appreciates the opportunity to 
provide a statement for the record on the National Oceanic and 
Atmospheric Administration (NOAA) FY 2012 budget request, particularly 
as it relates to the implementation of the Magnuson-Stevens Fishery 
Conservation and Management Act (MSA), the law that has governed 
management of America's ocean fish since 1976.
    The Pew Environment Group (PEG) offers qualified support for the 
President's FY 2012 budget request of $346.3 million for data 
collection and analysis programs at the National Marine Fisheries 
Service (NMFS). We are concerned that this request does not provide the 
long-term funding needed to maintain sustainable fisheries. Therefore, 
we consider it the minimum necessary to keep our fisheries on the road 
to recovery.
    In the nearly 35 years since the MSA was enacted, it has enjoyed 
strong bipartisan support, including the most recent 2006 
reauthorization, which was sponsored by the late Senator Ted Stevens 
and signed into law by President George W. Bush. The MSA provides the 
tools to sustainably manage ocean fish, one of America's most valuable 
natural resources. Healthy fish populations are the backbone of 
America's commercial and recreational saltwater fishing industries, 
which according to NMFS generated $163 billion in sales impacts and 
supported nearly 1.9 million full and part-time jobs in 2008 alone. \1\ 
Ocean fish conservation is good for fishermen, America's economy and 
the environment. For this reason, diverse stakeholders including 
commercial fishermen, recreational anglers and environmental groups are 
united in advocating for data collection and analysis appropriations.
---------------------------------------------------------------------------
    \1\ National Marine Fisheries Service (NMFS), 2010, ``Fisheries 
Economics of the United States, 2008,'' <http://www.st.nmfs.noaa.gov/
st5/publication/index.html>.
---------------------------------------------------------------------------
    Relatively modest federal investments in fisheries data and 
analysis in FY 2012 will help deliver over time billions of dollars in 
economic benefits and hundreds of thousands of jobs for U.S. taxpayers. 
PEG urges you to continue the bipartisan tradition of support for the 
MSA and provide adequate resources for data collection and analysis for 
the benefit of our fishing industries and ocean fish populations.
The MSA--Ending Overfishing in the United States
    Fish have been a staple in our diet and an important part of our 
nation's economic health since the time of the early settlers. George 
Washington himself managed a shad fishery at Mount Vernon, and Atlantic 
cod were critical to the survival and development of the early 
colonies. Unfortunately, overfishing (taking fish faster than they can 
reproduce) has diminished the economic potential of our nation's ocean 
fish populations, particularly in recent decades. Today, nearly a 
quarter of our commercially and recreationally important ocean fish 
populations--including some tuna, cod, flounder, snapper and grouper 
species--are severely depleted. \2\
---------------------------------------------------------------------------
    \2\ NMFS, ``2010 Status of U.S. Fisheries: Fourth Quarter Update,'' 
December 30, 2010. <www.nmfs.noaa.gov/sfa/statusoffisheries/
SOSmain.htm>.
---------------------------------------------------------------------------
    Congress first attempted to address this problem in 1976 when it 
passed the Fishery Conservation and Management Act, the precursor to 
the MSA, to ``Americanize'' our fisheries by eliminating foreign 
fishing off the U.S. coast and promoting the domestic fishing industry. 
However, over the course of the next two decades, policies focusing on 
expanding fishing, as well as dramatic improvements in technologies to 
locate and catch fish, resulted in overfishing becoming a national 
problem. Historic overfishing led to the collapse of many important 
fish populations around the country, most notably in New England, where 
severe declines in catch of such staples as cod wrought tremendous 
damage to fishing communities.
    A bipartisan group of lawmakers crafted the Sustainable Fisheries 
Act in 1996, which changed the focus of the MSA from promoting fishing 
to conserving fish, because they recognized the toll that overfishing 
was taking on fishermen and fishing communities across the country in 
the form of lost jobs, reduced catch and idle boats. Unfortunately, 
these changes did to not put an end to overfishing, and in 2006 
Congress overwhelmingly supported amendments to the MSA to end 
overfishing once and for all. Specifically, Congress required the 
establishment of science-based annual catch limits (ACLs) that do not 
allow overfishing and rebuild depleted fish populations and 
accountability measures to ensure success. President George W. Bush 
signed these amendments into law on January 12, 2007.
    Thanks to these bipartisan reforms, today we are witnessing 
rebounding fish populations and increased fishing opportunities for 
commercial fishermen and recreational anglers across the country. For 
example, overfishing is no longer occurring in the Mid-Atlantic region; 
and summer flounder, which supports a valuable commercial and 
recreational fishery, is nearly fully rebuilt because managers finally 
reduced fishing pressure to sustainable levels. Just over twenty years 
ago, summer flounder had declined to less than 15 percent of healthy 
levels as a result of overfishing. \3\ Now, the population has 
rebounded to 89 percent of a healthy level, enabling managers to 
increase the 2011 quota by 7.35 million pounds to 29.48 million pounds, 
an 86.9 percent increase in just over three years from a low of 15.77 
million pounds in 2008. In 2009, we commissioned an economic study that 
found rebuilding all Mid-Atlantic fish populations to healthy levels 
would generate $570 million in annual economic benefits. \4\ Sound 
fisheries management is clearly a good economic investment.
---------------------------------------------------------------------------
    \3\ Supra note i.
    \4\ J. M. Gates, ``Investing in Our Future: The Economic Case for 
Rebuilding Mid-Atlantic Fish Populations,'' Pew Environment Group 
(2009), <www.endoverfishing.org/resources/PEG_rebuilding.pdf>.
---------------------------------------------------------------------------
    In the Gulf of Mexico, conservation measures put in place by 
managers to finally end decades of overfishing on Gulf red snapper have 
allowed red snapper populations to increase, enabling managers to raise 
the allowable catch by 39 percent in 2010 to 6.945 million pounds. \5\ 
In 10 years, the red snapper catch is expected to increase from current 
levels to more than 10 million pounds annually, providing enduring 
economic benefits for fishermen and coastal communities hit hard by 
hurricanes and the recent Deepwater Horizon oil spill. \6\
---------------------------------------------------------------------------
    \5\ National Oceanic and Atmospheric Administration (NOAA) 
Southeast Regional Office, 2010. ``Southeast Fishery Bulletin FB10-
027.'' <http://sero.nmfs.noaa.gov/bulletins/pdfs/2010/FB10-
027%20Gulf%20Red%20Snapper%20FR%20Reg%20Amend.pdf>
    \6\ Gulf of Mexico Fishery Management Council, 2007. ``Final 
Amendment 27 to the Reef Fish Fishery Management Plan and Amendment 14 
to the Shrimp Fishery Management Plan.'' <http://sero.nmfs.noaa.gov/sf/
RedSnapper/pdfs/FinalRFAmend27-ShrimpAmend14.pdf>.
---------------------------------------------------------------------------
    In New England, the Fishery Management Council is reforming the 
important groundfish fishery by adopting for the first time science-
based annual catch limits and creating the voluntary ``sector'' 
management system that enables fishermen to form cooperatives that 
allow them greater flexibility in when they fish and control over how 
they fish. Preliminary data from NMFS show that these reforms are 
working: in the first eight months of the fishing year, revenues were 
up 8 percent over the same time period in 2009, and the number of fish 
landed was down 12 percent. \7\ When the fishing year ends in April, we 
will join Congress in carefully evaluating the economic and 
environmental performance of this new management system. However, if 
early reports are any indication, we can expect an end to overfishing, 
which in time will lead to growing fish populations, healthier ocean 
ecosystems and greater profits in New England.
---------------------------------------------------------------------------
    \7\ NOAA Northeast Regional Office, 2011. ``Sector Vessel Landings 
& Revenue, 2009 & 2010.'' <http://www.nero.noaa.gov/ro/fso/reports/
Sector_monitoring/Table_4.pdf> Accessed 3/2/2011.
---------------------------------------------------------------------------
Return on Investment
    As described above, America's investment in the MSA is providing 
tangible returns to fishermen, coastal communities and the Nation. 
America's fish are almost certain to become more valuable over time. 
While there are many factors that impact the market value of our ocean 
fish, the U.S. Department of Agriculture predicts that the price of 
fish and seafood in the U.S. is expected to increase significantly over 
time, faster than any other food through 2019. \8\ Protecting and 
expanding the U.S. wild fish supply is increasingly important because 
America has developed a seafood deficit, with over 80% of seafood 
consumed in the U.S. being imported in recent years. \9\ The relatively 
modest Congressional investment of $346.3 million for data collection 
and analysis programs that we recommend for FY 2012 is critical to 
begin reversing that trade deficit. NMFS estimates that rebuilding all 
of our depleted fish populations will deliver U.S. taxpayers an 
additional $31 billion in annual sales every year and support for 
500,000 new American jobs. \10\
---------------------------------------------------------------------------
    \8\ United States Department of Agriculture (2010), ``USDA 
Agricultural Projections to 2019,'' See Table 39, page 99. <.http://
www.usda.gov/oce/commodity/archive_projections/USDA
AgriculturalProjections2019.pdf>.
    \9\ NMFS, 2011, ``Fisheries Economics of the United States, 2009'', 
<http://www.st.nmfs.
noaa.gov/st1/fus/fus09/index.html>.
    \10\ Testimony of Eric Schwaab on Implementation of the Magnuson-
Stevens Conservation and Management Act before the U.S. Senate 
Committee on Commerce, Science and Transportation Subcommittee on 
Oceans, Atmosphere, Fisheries and the Coast Guard, p. 3, March 8, 2011: 
<http://www.legislative.noaa.gov/112testimony.html>.
---------------------------------------------------------------------------
Supporting the Transition to Long Term Sustainability
    Though we are beginning to see early returns on our investments as 
the MSA is implemented around the country, we recognize that the 
transition to sustainability has resulted in challenges for some 
fishermen. Decades of overfishing have reduced many fish populations to 
very low levels, increasing the difficulty and cost of their recovery. 
Management measures such as significantly reducing catch in the near-
term or closing areas to fishing for a limited period of time are 
sometimes necessary to end overfishing and restore these fish 
populations.
    Unfortunately, some fishermen are calling on Congress to weaken the 
MSA's conservation requirements to address these short-term economic 
challenges. This would be a mistake, because it was the loopholes in 
the law prior to the 1996 and 2006 amendments that allowed fishery 
managers to put short-term economics ahead of long-term conservation, 
resulting in overfishing and depleted fish populations. Rather than 
repeating the failed policies of the past, Congress should look for 
ways to help fishermen transition to sustainability while allowing 
federal managers to fulfill the promise of the MSA's conservation 
provisions. For example, regional permit banks in New England are a 
possible solution for fishermen in the groundfish fishery who need a 
low cost way to obtain more quota. NMFS has already provided $6 million 
to date to help New England states establish public permit banks to 
enhance fishing opportunities for small-scale groundfish fishermen. 
\11\
---------------------------------------------------------------------------
    \11\ NOAA Northeast Regional Office. September 13, 2010. ``NOAA and 
Rhode Island Department of Environmental Management Announce $1 Million 
Initiative to Establish Rhode Island Groundfish Permit Bank.'' <http://
www.nero.noaa.gov/nero/hotnews/RIGroundFishpermitbank/
RIPB_PR9_13_10.htm>
---------------------------------------------------------------------------
    Another challenge we face in the transition to sustainable 
fisheries management is setting science-based catch limits for fish 
populations that lack recent stock assessments, a situation that is 
most pressing in the South Atlantic, Gulf and Caribbean regions. Some 
assert that managers are making decisions based on inadequate science 
and advocate for weakening or eliminating the requirement to set ACLs 
for these so called ``data poor'' species. Decades of experience have 
proven that failing to establish ACLs creates demonstratively negative 
consequences for many important fisheries across the country. For 
example, managers did not set hard fishing quotas for South Atlantic 
black sea bass for over twenty years despite multiple assessments 
indicating the dire status of this fish. Now, twenty years later, 
managers must take difficult steps to restore South Atlantic black sea 
bass, including most recently closing the commercial and recreational 
season five months early. This example shows that eliminating the 
requirement to set ACLs for data poor species in the short-term can 
have severe long-term costs.
    It is important to note that there are no fish species managed 
under the MSA for which there are no data. Information is available on 
basic biology, life history characteristics or commercial and 
recreational catch numbers that can be used to set catch limits even 
for fish without complete assessments. For these fish populations, 
there are tools available for managers to set annual catch limits, some 
as simple as locking in current catch levels until more complete 
scientific evidence indicates that the population can support more 
fishing. These short-term measures will avoid the long-term costs 
incurred from unwittingly allowing overfishing.
FY 2012 Appropriations--Investing in Data Collection, Analysis and 
        Monitoring Programs
    The end of overfishing in the storied New England groundfish 
fishery and the rebound of recreationally and commercially important 
fish populations like summer flounder in the Mid-Atlantic illustrate 
that the MSA is working. In order to build on this success, we must 
give managers the tools to fully implement the MSA. Data collection 
programs in particular are the lifeblood of good fisheries management, 
generating information that helps managers make informed decisions, and 
fishermen and other fishery-related businesses plan their investments 
and business actions. Congress should support these programs because 
they are critical for maintaining healthy fish populations that support 
stable and productive fisheries.
    As such, PEG supports the President's FY 2012 request of $346.3 
million for the following core data collection, analysis and monitoring 
programs, an increase of $1.4 million over FY 2010 enacted funding 
levels. We note that proposed reductions made by the Administration 
(described below) from FY 2010 levels will negatively impact programs 
that are important for monitoring, building bridges with fishermen and 
collecting important biological and socioeconomic data. PEG recognizes 
the difficult fiscal climate in the U.S., and we would like to follow-
up with the Committee to discuss the long-term investment levels needed 
to support productive fish populations and fisheries. With regard to FY 
2012, we support the following specific line-item requests:
    <bullet>  Expand Annual Stock Assessments: $67.1 million as 
requested, an increase of $16.2 million over the FY 2010 enacted level. 
Fish stock assessments are critical for setting science-based ACLs that 
prevent overfishing and maintain productive fisheries over time. This 
funding would provide NMFS greater capability to assess the 230 
commercially and recreationally important fish stocks managed by the 
federal government. Timely, updated stock assessments reduce the 
scientific uncertainty associated with ACL-setting and can help fishery 
managers to increase commercial and recreational fishing opportunities 
while minimizing the risk of overfishing. We strongly support this 
critical increase in funding.
    <bullet>  Fisheries Statistics: $24.4 million as requested, an 
increase of $3.4 million over the FY 2010 enacted level. This budget 
line item supports programs that provide advice, coordination and 
guidance on matters related to the collection, analysis and 
dissemination of statistics in both commercial and recreational 
saltwater fisheries. The Marine Recreational Information Program, 
created to improve the quality and accuracy of recreational fishing 
data per the 2006 MSA amendments, is funded primarily through this 
budget line-item. Higher quality data on marine recreational fishing, 
which contributes $59 billion in sales impacts to the U.S. economy and 
supports 384,000 jobs, will allow scientists to better estimate fishing 
mortality and set ACLs more accurately, thus reducing the risk of 
overfishing. \12\ At a time when recreational fishermen and scientists 
agree that better data are critical for both restoring fish populations 
and increasing recreational fishing opportunities, we urge Congress to 
support this increase in funding.
---------------------------------------------------------------------------
    \12\ NMFS, 2010, ``Fisheries Economics of the United States, 
2008'',<http://www.st.nmfs.noaa.gov/st5/publication/
fisheries_economics_2008.html>.
---------------------------------------------------------------------------
    <bullet>  Survey and Monitoring Projects: $24.2 million as 
requested, an increase of $.5 million over the FY 2010 enacted level. 
NOAA has stated that ``many fisheries lack adequate and timely 
monitoring of catch and fishing effort.'' \13\ Survey and monitoring 
projects provide critical support for implementation of the new ACL 
requirement. Increased funding will improve the accuracy of ACLs and 
increase the percentage of stocks with assessments. \14\ Additional 
funding for fishery-independent surveys, monitoring and research will 
improve estimates of ecosystem change, fishing mortality and population 
size.
---------------------------------------------------------------------------
    \13\ NOAA, ``Budget Estimates, Fiscal Year 2009, Congressional 
Submission,'' p. 166. Available at: http://
www.corporateservices.noaa.gov/nbo/fy09_rollout_materials/
NOAA_FY09_Final_CJ.pdf.
    \14\ NOAA, ``Technical Memorandum NMFS-F/SPO-56: Marine Fisheries 
Stock Assessment Improvement Plan: Report of the National Marine 
Fisheries Service National Task Force for Improving Fish Stock 
Assessments,'' October 2001. Available at: http://www.nmfs.noaa.gov/pr/
sars/improvement/pdfs/marine_fisheries_saip.pdf.
---------------------------------------------------------------------------
    <bullet>  Observers/Training: $39.1 million as requested, a 
decrease of $1.9 million from the FY 2010 enacted level. Trained 
fisheries observers provide essential data on the amount and type of 
fish caught by fishermen, which is used for compliance monitoring and 
scientific stock assessments. \15\ NOAA considers at-sea observers the 
most reliable source of information about fishing catch and bycatch 
(i.e., incidental catch of non-target ocean wildlife). \16\ We feel 
that this request does not reflect the annual investment needed for 
observer programs.
---------------------------------------------------------------------------
    \15\ NOAA, ``NOAA FY 2012 President's Budget'', Chapter 2: National 
Marine Fisheries Service, p. 315-19. Available at: http://
www.corporateservices.noaa.gov/nbo/fy12_presidents_budget/
National_Marine_Fisheries_Service_FY12.pdf.
    \16\ NOAA/NMFS, Evaluating Bycatch: A National Approach to 
Standardized Bycatch Monitoring Programs, NOAA Technical Memorandum 
NMFS-F/SPO-66, October 2004. 108 p.
---------------------------------------------------------------------------
    <bullet>  Cooperative Research: $7.2 million as requested by the 
President, a decrease of $10.3 million from the FY 2010 enacted level. 
Cooperative research programs pay fishermen, working under the 
direction of federal scientists, to collect fisheries data and test new 
sustainable fishing gear and practices. These programs provide jobs for 
fishermen and also enable managers to tap into their on-the-water 
knowledge and expertise. In 2003, NMFS estimated that it would need 
$25.5 million for cooperative research by FY 2009. \17\ We are 
concerned about the effect of the proposed reduction on fishermen and 
would suggest that cooperative research should be funded at this level.
---------------------------------------------------------------------------
    \17\ NMFS' 2003 five year assessment estimated the need for 
cooperative research to be $22.8 million above FY 2003 levels by FY 
2009, for a total of $25.5 million.
---------------------------------------------------------------------------
    In addition, the President's FY 2012 budget request transfers $6 
million out of the cooperative research line item and into the National 
Catch Share Program line item. We believe that any increases for catch 
share programs should be made with new money, not transferred from 
existing general research programs that should be available for all 
fisheries. Although NMFS asserts that the $6 million will be used for 
cooperative research in catch share fisheries, there is no guarantee 
that it will continue to be used for cooperative research in the 
future. Taking funding from general cooperative research, where it 
would be available for all fisheries, and restricting it to only catch 
share fisheries, short changes the vast majority of fisheries, which 
are not catch share fisheries.
    <bullet>  Fisheries Research and Management Programs: total of 
$184.3 million as requested, a $6.5 million decrease from the FY 2010 
enacted level. Fisheries research and management programs provide 
accurate and timely information and analysis of the biology and 
population status of managed fish, as well as the socioeconomics of the 
fisheries that depend on those populations. Such information is 
critical for the development of management measures to ensure that they 
end overfishing, and we have concerns regarding the reduction from FY 
2010 levels. Because of their vital role, Fisheries Research and 
Management Programs should be funded at no less than the FY 2012 
request of $184.3 million. In NOAA's FY 2012 budget request, $11.4 
million is transferred from the Fisheries Research and Management 
Programs line item into the National Catch Share Program line item. As 
with Cooperative Research, no funds from this line item should be 
transferred to the National Catch Share Program because those funds 
would become permanently unavailable to support research and management 
of the vast majority of federally managed fisheries that are not 
currently in a catch share program, and may not be included in one in 
the future.
Conclusion
    Good fisheries management leads to healthy fish populations, a 
stable and productive fishing industry and robust recreational 
fisheries--a win-win for conservation, anglers and marine-related 
businesses. Today, because of the MSA, fishery managers are using 
science-based catch limits that do not allow overfishing and rebuild 
depleted fish populations to healthy levels. These requirements are 
working, providing economic benefits to fishing communities and the 
nation as a whole, and promise to provide even greater returns in the 
future. We cannot afford to leave the job of bringing all fish 
populations to healthy levels unfinished--our nation's fishermen and 
our fish resources depend on it. The relatively modest investments that 
we are requesting today will lead to tremendous yield in the future. 
According to NMFS, rebuilding all U.S. fish populations will lead to 
a$31 billion increase in annual sales and support for half a million 
new U.S. jobs. \18\
---------------------------------------------------------------------------
    \18\ Testimony of Eric Schwaab on Implementation of the Magnuson-
Stevens Conservation and Management Act before the U.S. Senate 
Committee on Commerce, Science and Transportation Subcommittee on 
Oceans, Atmosphere, Fisheries and the Coast Guard, p. 3, March 8, 2011: 
<http://www.legislative.noaa.gov/112testimony.html>.
---------------------------------------------------------------------------
    We ask the Subcommittee to continue its support of the MSA and 
invest at least $346.3 million in FY 2012 in one of America's most 
valuable natural resources, our ocean fish populations, so that they 
can continue to provide significant and growing benefits for U.S. 
taxpayers through fishing jobs, healthy oceans, local seafood and 
vibrant coastal communities.

                                 <all>

</pre></body></html>
